<html>
<title> - SUPERSTORM SANDY: THE DEVASTATING IMPACT ON THE NATION'S LARGEST TRANSPORTATION SYSTEMS</title>
<body><pre>[Senate Hearing 112-792]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-792

 
                   SUPERSTORM SANDY: THE DEVASTATING 
                         IMPACT ON THE NATION'S 
                     LARGEST TRANSPORTATION SYSTEMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
81-827                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
    Rebecca Seidel, Republican Chief Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     ROGER F. WICKER, Mississippi, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             JIM DeMINT, South Carolina
JOHN F. KERRY, Massachusetts         JOHN THUNE, South Dakota
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 JOHN BOOZMAN, Arkansas
CLAIRE McCASKILL, Missouri           PATRICK J. TOOMEY, Pennsylvania
AMY KLOBUCHAR, Minnesota             MARCO RUBIO, Florida
TOM UDALL, New Mexico                KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 6, 2012.................................     1
Statement of Senator Lautenberg..................................     1
    Prepared statement of John Porcari, Deputy Secretary, U.S. 
      Department of Transportation...............................    15
Statement of Senator Wicker......................................     4
Statement of Senator Nelson......................................     6
Statement of Senator Klobuchar...................................    13

                               Witnesses

Hon. Charles E. Schumer, U.S. Senator from New York..............     6
Hon. Robert Menendez, U.S. Senator from New Jersey...............     8
Hon. Kirsten Gillibrand, U.S. Senator from New York..............    12
Joseph H. Boardman, President and Chief Executive Officer, Amtrak    19
    Prepared statement...........................................    21
Joseph J. Lhota, Chairman and CEO, New York Metropolitan 
  Transportation Authority.......................................    24
    Prepared statement...........................................    26
Patrick J. Foye, Executive Director, Port Authority of New York 
  and New Jersey.................................................    28
    Prepared statement...........................................    30
James Weinstein, Executive Director, NJ Transit Corporation......    33
    Prepared statement...........................................    35

                                Appendix

Commissioner James P. Redeker, Connecticut Department of 
  Transportation, prepared statement.............................    41
Response to written questions submitted by Hon. John Thune to 
  John Porcari...................................................    43


                   SUPERSTORM SANDY: THE DEVASTATING
                     IMPACT ON THE NATION'S LARGEST
                         TRANSPORTATION SYSTEMS

                              ----------                              


                       THURSDAY, DECEMBER 6, 2012

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:38 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Good morning. I welcome everyone to 
today's hearing, which I called to address the devastating 
impact that the Superstorm Sandy had on our region's 
transportation systems.
    It hit squarely in our nation's most densely populated 
area, home to the largest and most widely used public 
transportation network in the country. The storm did 
unprecedented damage to our transportation system. Estimates of 
the damage have reached more than $7 billion. We are talking 
about damage just to the transportation system. Across the 
region, train tunnels, stations, and rail yards were flooded. 
Rail tracks were damaged and critical equipment was ruined. And 
some of that equipment, unfortunately, was fairly new and most 
usable, and unfortunately, these pieces of equipment may have 
been rendered almost useless. But we are going to hear about 
that.
    We see an almost incomprehensible example of the damage in 
this picture with a boat and shipping container strewn across 
New Jersey Transit tracks.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Lautenberg. Roads and bridges were damaged and 
littered with debris. And the Holland Tunnel--it is a major 
commuting facility--carries thousands of vehicles every day 
into New York City. It was flooded.
    The damage to our infrastructure did not just cause 
structural problems, it shut down our region. And for many 
commuters, getting to work became a much longer, arduous, and 
expensive experience.
    And you can see why from this picture which shows flooding 
at that Hoboken PATH station. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Lautenberg. It is hard to imagine, but the water 
was 6 feet high. And this station I have visited many times 
over the years, a classic, old station was just put into such 
terrible condition and we will talk about that. What do we do? 
Do we just repair these things?
    Anyway, with limited transit and rail access to New York, 
some New Jerseyans suffered multi-hour commutes at two and 
three times the usual cost. Or they were forced to sit in 
endless traffic. And by the way, in case you were not aware, 
there was heavy traffic before this, and so this just magnified 
the problem that we already had.
    Damage to our transportation system had severe economic 
impacts. A prime example is the Port of New York and New 
Jersey, the largest port on the East Coast which supports more 
than 550,000 jobs in the region. Because of extensive flooding, 
dangerous debris in the waterways and damaged electrical 
systems, the port was largely shut down for days, nearly 
grinding commerce to a halt.
    Transportation in our region has a nationwide impact. The 
millions of people throughout the country who ride our rails, 
drive through our state, or use our products that come through 
our port also felt the effects of Sandy.
    While State and local agencies worked diligently to get our 
systems running again, many problems still need to be fixed, 
and they cannot do it all on their own.
    A storm of this magnitude requires a response with the full 
power of the Federal Government. It will take all of us working 
together to make sure that our infrastructure is more resilient 
and better prepared for the future.
    One of the projects that is going to help us get there is a 
new tunnel, the Amtrak Gateway Tunnel project, which will add 
much-needed capacity into New York City for millions of 
Americans using New Jersey Transit and Amtrak trains. This 
modern tunnel would also be better protected against flooding 
and provide an alternative route when disaster strikes. It 
would help prevent damage like we see here where the Hudson 
River tunnel that carries Amtrak and New Jersey Transit was 
turned into a river. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Lautenberg. You can see that their tracks are 
visible through the water, and it is a shocking sight because 
you know what kind of damage this means and what we must do in 
such a hurry.
    And now, we must also remember that Superstorm Sandy is a 
sign of things to come. In this changing climate, the intensity 
of storms has increased making extreme weather like Sandy more 
and more common.
    As we devote resources to recovering from this storm, we 
have got to invest so we are better prepared for the future 
ones as well. And if we make these smarter investments on the 
front end, we can save a lot of money and heartache in the 
future.
    Each of the witnesses here, including my fellow colleagues 
at the table from the region and our regional transportation 
agencies, have played essential roles in response to this 
storm. We have all been working together and we are in lockstep 
together because what happens in my state, our State of New 
Jersey, affects New York in a major way, and it is also true if 
the flow is reversed.
    So I thank you all for testifying to get our region up and 
running again, and I look forward to hearing your testimony 
about how we can do the best job possible.
    I am pleased to be here with my colleague, the Ranking 
Member, Senator Wicker. Senator Wicker, your comments please.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Senator Lautenberg. I want to 
thank you for holding this hearing and know we are eager to get 
to our three colleagues who will testify in just a few moments.
    But let me say as a Mississippian who has experienced 
damage from devastating storms, I want to particularly assure 
those in this room that you have my condolences and my empathy 
at the damage and loss of life that Hurricane Sandy brought to 
your region. I understand the impact that a major storm can 
have on the lives of Americans. Even today, 7 years after 
Hurricane Katrina made landfall along the Gulf Coast, taking 
the lives over 1,800 people and causing over $108 billion in 
damage, many Mississippians are still trying to rebuild.
    I witnessed firsthand the devastation of Hurricane Katrina, 
and I can understand it can take years to recover fully. I hope 
recovery in New York and New Jersey will not take so long as it 
has for Hurricane Katrina, but I would not be surprised if, 
regrettably, the recovery does take a long time.
    This hearing today will focus on the effects of Sandy on 
the transportation network of the New York-New Jersey region. 
Transportation infrastructure is a crucial element of our 
nation's economy, meeting the transportation needs for both 
people and freight. When the transportation network of a major 
city is crippled, the impacts can be felt throughout the United 
States.
    I look forward to hearing from our witnesses about what 
they are doing to repair the damage done by Hurricane Sandy.
    I will take a moment to mention that the assistance we 
Mississippians received during and after Katrina makes us all 
the more eager to help our fellow Americans in the Northeast 
recover from Sandy. For many Mississippians, helping those 
affected by Hurricane Sandy is an especially meaningful 
mission. Our own recovery following Katrina involved countless 
contributions of volunteers, church groups, nonprofit 
organizations, and emergency teams from across the Nation, 
including the Northeast. And we appreciate that. Today 
Mississippians are responding in kind by taking an active role 
in disaster relief efforts to assist northeastern communities 
in need.
    For example, the Gulf Park Estates Volunteer Fire 
Department in Ocean Springs, Mississippi has provided a pumper 
truck it received after Katrina to the West Hamilton Beach 
Volunteer Fire Department in New York. More than 100 staff and 
volunteers from the Red Cross Mississippi Region did important 
work at shelters and distributed supplies in Pennsylvania, New 
Jersey, and New York. Dozens of volunteers with the Mississippi 
Baptist Disaster Relief Task Force volunteered to serve meals 
and to help remove debris and fallen trees.
    I commend these volunteers as I commended the volunteers 
from other sections of the country that helped us in 
Mississippi for the valuable work they have done during this 
crisis. We could not have made it and the recovery from Sandy 
could not be complete without the help of charitable 
organizations and volunteers.
    So thank you, Mr. Chairman, and I look forward to hearing 
from our colleagues and the other witnesses.
    Senator Lautenberg. Thanks very much, Senator Wicker.
    Have you got a short statement you would like to make?
    Senator Nelson. Of course.
    [Laughter.]
    Senator Lautenberg. We are pleased to have our colleague 
from Florida because we are talking about transportation.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I will be short and say that hurricanes are 
a way of life. It is part of our life in our state and, 
therefore, we are much more prepared. Thank goodness we have 
the head of FEMA who used to be the head of the emergency 
management services in Florida. He went through all four 
hurricanes that hit Florida in 2004. So he is a real 
professional, Craig Fugate.
    But what you all are suffering is that a hurricane is not 
supposed to come to the Northeast and especially not in October 
and especially not at high tide with a full moon. And so you 
put all of that together and you are starting to experience 
some of the things in a category 1 hurricane that we experience 
in category 4 and 5 hurricanes. So I feel your pain and I want 
to help.
    Senator Lautenberg. Thanks very much, Senator Nelson. We 
appreciate your words and your experiences.
    We are pleased to have our distinguished colleagues, Chuck 
Schumer from New York and my colleague, Bob Menendez, from New 
Jersey. And I believe that Senator Gillibrand will be here 
shortly.
    These Senators have been strong partners in this rebuilding 
effort. It is a great privilege to work together. We are a 
really strong team and we share the value of quick action and 
sufficient resources to get this job done. I mentioned we are 
in the largest commutation area in the country, and it takes 
the diligence and the skill that we have with our friends and 
colleagues.
    So, Senator Schumer, we would like to hear from you.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Well, thank you, Mr. Chairman. First, 
thanks for holding this hearing but more importantly for your 
great partnership as New York and New Jersey work together as a 
bipartisan, bi-State delegation, along with colleagues from the 
rest of the Northeast, to deal with this awful, awful 
devastation. It is good that you are in so many important 
positions here in this Senate that will have a lot of say in 
how we deal with this, and we are grateful for that, as well as 
your leadership.
    I want to thank the Ranking Member, Senator Wicker, very 
much. West Hamilton Beach was in my old congressional district. 
It is one of the few volunteer fire departments in New York 
City. It is a very cohesive community right on the water, right 
on the great Jamaica Bay. And the generosity of Mississippians 
to West Hamilton Beach has been noted and much appreciated by 
us. And we are also glad in a certain sense--not that you 
suffered the same damage, but you understand what we are going 
through because of the devastation that Katrina wreaked on your 
community.
    And of course, to my friend, Bill Nelson, here who, as he 
said, lives with hurricanes as a way of life--we are learning 
how tough it is and we have renewed sympathy for the people of 
Florida and the Gulf Coast who live with these things 
regularly.
    New York State, as you know, suffered nearly $7.3 billion 
in transportation-related damages due to Superstorm Sandy. Of 
that total, the New York MTA, Metropolitan Transit Authority, 
sustained about $5 billion in damages. It is huge. I never saw 
anything like it.
    We have the longest underground tunnel in the world in the 
Brooklyn Battery Tunnel. I take it almost every day that I am 
in New York City because my home in Brooklyn is connected to 
it. And it was totally filled with water, both tubes from one 
end to the other, from the Manhattan end to the Brooklyn end. 
There were close to 100 million gallons of water that had to be 
pumped out of that tunnel, and it is still not back up to 
snuff. That is just one of many examples. There are so many.
    The MTA did a very good job. I want to congratulate Joe 
Lhota. They moved their rolling stock to high ground. They 
tried to barricade this awful flood in the best way they could 
but, boy, it is awful. And the MTA is the largest public 
transportation system in the country. It is the lifeblood of 
New York. It is our circulatory system. 3.5 million people go 
on and off Manhattan Island every day to work. Wow. 3.5 million 
people. I guess that is more than the number of people in 
Mississippi and probably more than the number of people in Dade 
County anyway. And we depend on it. 2.63 billion trips a year.
    And as I said, the MTA took a lot of necessary precautions, 
but this is a 108-year-old system. It is the first major subway 
system in America, and it was never subjected, as you noted 
correctly, Senator Nelson, to the full moon and the high tide 
and the huge storm before. Never had anything like this. The 
MTA tried to put up barriers. In many cases they worked, but I 
other cases like the beautiful and new South Ferry Station 
right near the World Trade Center--the barriers were just 
knocked over by the high winds and flying debris. This one 
subway station, South Ferry, is going to cost over $500 
million, nearly $600 million, to repair.
    Many more underwater tunnels that connected the systems 
together are gone, and salt water, which of course we are a 
salt water place, is corrosive to the switches, to the tracks, 
and to everything else. So there is lots of permanent damage. 
The system is still not running up to snuff and it is our 
lifeblood.
    So there are two points I would like to make to this 
Committee.
    The first, we need help with mitigation. We cannot just 
rebuild a 108-year-old system and replace it with the parts 
that existed then. Most of them do not exist anymore and it 
does not make much sense to just redo it exactly as it is if, 
God forbid, there is another flood like this. So we need help 
with mitigation to make it stronger and better.
    I know that Senator Wicker understands this. I think it 
passed by one vote. I was that vote in the well of the House 
when he and Thad Cochran--particularly it was Thad Cochran who 
came to me. They had to move a freight line, a big rail freight 
line, away from the flood plain in Mississippi. It cost close 
to $1 billion, as I recall. I voted for it, understanding the 
need for mitigation.
    We have the same need for mitigation now because you cannot 
replace exactly what has been damaged. But even if you could, 
you would not want to. You want to make sure that the next 
storm that occurs--now that we are so much the wiser, Senator 
Nelson, we want to make sure that we are much more flood-proof. 
So we are going to need all kinds of things. Inflatable plugs, 
station seals at vulnerable points should be part of the 
Federal proposal.
    So, first point, we need help not just in replacement but 
in mitigation, and it only makes sense in a large, old but 
vital system like this.
    Second point. We need some flexibility which is related. 
And the good news is that we have a vehicle that is available. 
That is the Public Transportation Emergency Relief Program. 
FEMA has done a good job by and large. There were lots of 
mistakes, but FEMA is doing its best under difficult 
circumstances. But they are not experts on transportation. And 
Mary Landrieu particularly told us that down in the Gulf area, 
it was much better to deal with the Federal Transportation 
Administration which would be dealt with if we put money into 
the Public Transportation Emergency Program. It is an 
authorized program. We did it last year in the transportation 
bill, but the cupboard is bare. There is no money in it.
    We all understand that under the Stafford Act, we get these 
dollars. The MTA is a public system, but it would be much 
better to put it under FTA, the Public Transportation Emergency 
Relief Program, because they provide grants to states and 
public transportation systems to protect, repair, and replace 
equipment that has been damaged by a natural disaster. But 
Congress created this program to create flexibility.
    Despite what FEMA has tried to do in our localities--and 
they are working real hard--FEMA is bound by the law to replace 
items to a previous condition, and as I said, that does not 
make sense. So the combination of having mitigation monies and 
doing it through the Public Transportation Emergency Relief 
Program makes sense. New Orleans, under the old program, was 
forced to actually buy old buses. That made no sense. So we 
need flexibility and that is why we need an FTA emergency 
relief account.
    Bottom line, in conclusion, New York has no choice. We have 
to simultaneously rebuild and adapt to protect against future 
storms. We are a waterfront region. New York and New Jersey is 
a waterfront region. It has become abundantly clear we are in 
the path of violent new weather realities and we have to adapt.
    And I want to thank the Chair and the Committee for the 
opportunity to speak.
    Senator Lautenberg. Thank you very much, Senator Schumer.
    Senator Menendez?

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. And I 
particularly want to say that your leadership in this committee 
and the Appropriations Committee is going to be so critical to 
the reconstruction of New Jersey, and we appreciate not only 
your leadership in those positions, but the leadership you have 
shown alongside those of us who are trying to restore the lives 
of New Jerseyans. And so you are critically important to our 
collective success for the region.
    And I appreciate the comments of the Ranking Member, 
Senator Wicker, and Senator Nelson. As someone who has stood 
with the people of Mississippi and Florida each and every time 
that there has been an issue of devastation and recovery, I am 
heartened to hear the remarks that you both made because it is 
critically important to the people of New Jersey now. We do not 
have that experience. This is the first time we have had the 
experience. I have lived in the state my whole life and I have 
never seen the breadth and scope of devastation that the state 
has faced after Superstorm Sandy.
    I appreciate the opportunity to give one or two dimensions 
of that. There are many but for the purposes of this hearing, 
just to give you a sense, the numbers are staggering across the 
region. We lost 34 lives during the storm. It was the largest 
mass transit disaster in our nation's history. Four out of 10 
of the Nation's transit riders--of the Nation's total transit 
riders--had their commutes disrupted by the storm and many of 
them still do today.
    New Jersey Transit alone had dozens of locomotives and rail 
cars damaged in the flooding, miles and miles of tracks 
damaged. The preliminary damage estimate provided by the State 
is now up to about $37 billion. We are getting more damage 
numbers, but the toll to transportation and commerce is truly 
incalculable.
    The Port of New York and New Jersey, which really most of 
it is on the New Jersey side and is the mega-port of the east 
coast, a quarter of a million jobs, $25 billion to $30 billion 
of economic activity for the Nation, suffered widespread 
damage. Ships were unloading during the course of the storm, 
but a full recovery from the damage caused at the port is going 
to take much longer.
    The storm surge grew to 14 feet. Winds were about 90 miles 
per hour. More than 700 cargo containers were damaged when the 
surge and high winds toppled the containers onto each other. In 
this picture, you can see that half of a Port Authority barge 
was lifted onto a berth in Red Hook. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Menendez. In Jersey City, a float used to move 
railway cars broke in half and created significant damage. 150 
feet of railroad track was washed away. Cargo-handling cranes 
and other pieces of equipment were severely damaged.
    And this is also important to national security issues 
because in the last BRAC round, the only water port for the 
military in Bayonne, New Jersey was closed. And so the use of a 
commercial port for forward projection from the East Coast is 
the Port of New York and New Jersey, and when it cannot operate 
well, it is part of a national security imperative as well.
    The trucking industry lost about 1,000 rigs to flooding at 
the port and other locations where they were parked, which is 
about 25 percent of all of the truck fleet that serves the port 
region.
    About 16,000 cars were destroyed, a total loss. The tangled 
mess of colored metal scraps you see in the picture is a mix of 
cars and hundreds of motorcycles destroyed by the storm.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Menendez. Over 50 ships were diverted that were 
headed for New York and New Jersey. Those ships were carrying 
over 15,000 cargo containers and almost 10,000 automobiles.
    That is just one dimension.
    As far as other transportation damage up and down the New 
Jersey coast, the sheer scope of the damage is difficult to 
fathom. This next picture is the Mantoloking Bridge which 
crosses Barnegat Bay and connects Brick with Mantoloking. As 
you can see in the picture, the storm surge ripped a gash right 
through Mantoloking, and this is some of the greatest 
destruction of homes in that region. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Menendez. Amazingly, the bridge can be repaired, 
but many of the surrounding homes were lost and part of that 
highway will need to be rebuilt.
    This next picture is a shipping container and a large 
pleasure boat tossed onto the Morgan Rail Bridge on the north 
Jersey coastline, along with tons of debris, obviously killing 
a main artery of the State's riders.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Menendez. It took a lot of work to restore service 
on New Jersey Transit which suffered disruptions on every rail 
line.
    And even today, as we speak, the Port Authority's PATH 
terminal, which is the subway between New York and New Jersey 
under the Hudson River, is inoperable and will not be back on 
line for some time. Those are tens of thousands of riders every 
day that are affected and, obviously, not only their commutes 
but the cost of their commutes has dramatically grown in the 
midst of a challenging economic time.
    Corrosive seawater rushed into the PATH stations at 
Exchange Place and Hoboken, and the Hoboken station may still 
not be reopened for weeks.
    So, Mr. Chairman, that is one dimension on transportation. 
We have lost thousands of homes. We have thousands of people 
who are out of a home. I am not talking about a second home 
because many people think about the New Jersey shore and they 
say, oh, that is about second homes. No. These are year-round 
communities where people have made their lives and their 
investments and now have seen them washed away. They do not 
have a place to come back home to.
    And so that is why it is critically important--the work of 
this committee and to ask our colleagues--as we have stood with 
the people of the Gulf Coast in Hurricane Katrina and in 
Florida, the people of Joplin, Missouri after a tornado ravaged 
their community, when the Mississippi flooded, when crops were 
destroyed in the Midwest, we have been there. And since this is 
the United States of America, we need you to be with us.
    Thank you very much, Mr. Chairman.
    Senator Lautenberg. Thanks very much, Senator Menendez.
    Senator Gillibrand is relatively new here but really 
fighting whenever it comes to the needs of our region and your 
state obviously. We are pleased to have you here. Please, your 
testimony.

             STATEMENT OF HON. KIRSTEN GILLIBRAND, 
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman, and thank you, 
committee members, for attending today.
    You know better than anyone, Mr. Chairman, how severe this 
storm was and the type of destruction that was wrought 
throughout New York, New Jersey, Connecticut, and the 
surrounding region. We are still suffering gravely. There are 
still families who cannot return to their homes. There are 
businesses that are just in the early stages of figuring out 
how to rebuild. There were so many lives lost, so many families 
absolutely torn apart.
    And I can tell you this is the job of the Federal 
Government. It is our job to protect people. It is our job to 
help communities rebuild when there are natural disasters that 
local governments just cannot afford to be able to pay for on 
their own.
    Now, New York has been working very hard to come up with a 
plan about how to rebuild, but the transportation 
infrastructure has taken an unbelievable beating. In New York 
alone, 2,000 miles of roads were destroyed or damaged. 11 
tunnels were flooded. And our city and our State really relies 
on mass transit. We are the number one users of mass transit in 
the country. And with our mass transit system, miles of tracks 
and tunnels were flooded with corrosive salt water. 12 subway 
stations were damaged or destroyed, and half a million transit 
riders are still experiencing severe disruptions.
    Now, you will have the MTA Chairman come in, which is 
fantastic because he can give you the nuts and bolts of the 
loss, the repairs, where we stand. A lot of the service is up 
and running now, but there are long-term repairs that must be 
done. You can see the nature of the storm. It just filled up 
the subways. When we built these subways 100 years ago, they 
could not have imagined this kind of flooding, this kind of 
storm. And so the water just rushed in and that corrosive salt 
water really did affect the electrical systems and the ability 
to get these stations back up and running.
    So it is a massive undertaking. The initial estimates are 
that just fixing our mass transit system could cost about $5 
billion. So you can see the extent of the kind of damage and 
how much it really takes to do.
    This is our rail system. These are the Rockaway tracks. The 
tracks are just washed out. So if you know anything about the 
geography of New York State and New York City, we have rail 
lines coming in and out of New York City straight up, straight 
west, straight east, and they are essential for commuters to 
get to and from work. You know, New York City is a city of 8 
million people, but you have got millions of people on Long 
Island that come into the city every day. They either come by 
road or they come by rail. So that is the kind of work that is 
going to be needed to be done just to get our city up and 
running again.
    I will not give much more detail. I do rely on the 
testimony that has been given previously and the testimony that 
is to come. But I just want to emphasize for our colleagues the 
reason why these hearings matter is because the rest of 
Congress, the rest of the Senate has not necessarily been to 
New York since the storm. They have not seen the devastation in 
these communities. They have not seen the destruction that was 
caused to so many families and so many businesses. And you 
know, we have seen storms before. We have seen storms all 
across the country. We have seen wildfires. We have seen 
tornadoes. We saw what happened with Hurricane Katrina. And so 
we know what suffering looks like. And I can tell you New York 
has never suffered on this level because of a natural disaster 
ever. And so to have the ability and wherewithal to begin to 
rebuild will mean that we will rely on the Federal Government.
    So I want to thank you for holding this hearing, and I want 
to thank you for giving us the opportunity to tell these 
stories and to show you what really happened in New York. Thank 
you.
    Senator Lautenberg. Thank you very much, Senator 
Gillibrand.
    Senator Klobuchar requested an opportunity to give a 
statement. We welcome her statement.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. I just wanted, 
while Senator Gillibrand is still here, to thank all four of 
you, Mr. Chairman, as well as Senator Menendez and Senator 
Schumer. And I have specifically talked to Senator Gillibrand 
at length about this, and I know, having had some version of 
this in Minnesota with flooding in the Red River Valley--and 
everyone remembers Grand Forks, but we have had similar close 
calls with Fargo and Morehead--what this is like for the 
families. And I really appreciate how you have brought this 
home to us in terms of the actual effects it had on people, and 
I think we have to remember that.
    And what I remember is that New York State and New Jersey 
and the rest of the country stood by Minnesota and North Dakota 
when we had our severe weather and our severe floods or when 
the 35W bridge collapsed and we were able to rebuild that 
bridge in a year. And we saw firsthand what that was like to 
have a major infrastructure destruction right in the middle of 
our major city.
    And so I think it is very important that during a time of 
divisiveness that we stand together and we stand for those that 
have been affected by this horrible storm.
    I do know that our Minnesota National Guard has been out 
there. We consider them the best Guard in the country, Senator 
Gillibrand and Mr. Chairman, but you may think otherwise. But 
they have been out there helping, and I think that is just much 
of the spirit that we bring here. And we all have to understand 
that just as importantly as getting those emergency supplies to 
people, we are now at the next stage. We are at the stage of 
rebuilding and rebuilding means rebuilding infrastructure.
    Thank you very much.
    Senator Lautenberg. Thank you very much, Senator Klobuchar.
    Now we will call our second panel to testify. We welcome 
this panel of transportation experts. We know that each of you 
in your routine duties have got so much on your hands.
    The one thing I wanted to make certain that we understood 
is the magnitude of the support teams that came in from all 
over the country and the fact that it took some time to get 
things going, and Senator Wicker reminded us about that. But 
the devastation was so enormous that when we look back, a lot 
was done in a relatively short period of time.
    So you each have major transportation responsibilities and 
we are glad to have you as experts testifying. And I would ask, 
if you can, to keep your statements within a 5-minute limit. We 
will allow you a couple seconds here or there if necessary, but 
otherwise I would ask that you do that. I will first call on 
Mr. Boardman.
    Did Amtrak get a new name? What are we calling the 
organization?
    Mr. Boardman. Do you mean for the Northeast, the 
infrastructure and investment development business line for the 
Northeast? I am not sure of your----
    Senator Lautenberg. No. I see National Passenger Rail 
Corporation.
    Mr. Boardman. Oh, OK. The official title.
    Senator Lautenberg. I think of good, old Amtrak.
    Mr. Boardman. Amtrak, America's railroad, Senator.
    Senator Lautenberg. Before we start, I would like to 
acknowledge the Deputy Secretary of Transportation, John 
Porcari. Is John here? Well, I would have acknowledged him if 
he was here. I follow instructions. OK?
    And we have testimony from Deputy Secretary Porcari, and I 
ask unanimous consent that it be placed in the record.
    [The prepared statement of Mr. Porcari follows:]

         Prepared Statement of John Porcari, Deputy Secretary, 
                   U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Wicker, and Members of the 
Subcommittee:

    Thank you for inviting me to appear before you today to discuss the 
impact of Hurricane Sandy on the transportation system in the affected 
states. I welcome the Subcommittee's interest in this critically 
important topic.
    Hurricane Sandy had a devastating effect on our Nation's citizens 
living along the Eastern Seaboard. There were 131 fatalities in the 
states where the hurricane came ashore, and about 8.3 million people 
lost electrical power. Tens of thousands of homes and businesses have 
been damaged or destroyed, and many will be homeless for months while 
the damage is repaired. Just two weeks ago I was able to visit New 
Jersey with Vice President Biden, Senator Lautenberg, and other New 
Jersey officials to see first-hand the devastation that had occurred. 
Secretary LaHood joins me in expressing our condolences to the families 
who have lost their loved ones, and our determination to do everything 
we can to get the families whose homes have been destroyed back on 
their feet. The transportation system also suffered extensive damage, 
amounting to billions of dollars. At the same time, the affected cities 
and states have done an impressive job of responding to the disaster, 
with the help of their Federal partners.
    The devastating effects of the storm raise important questions 
about how to rebuild and how we can mitigate the effects of similar 
storms in the future. As we rebuild, we need to focus our attention on 
ensuring that our transportation system is more resilient, on building 
more redundancy into the system, and on approaching the transportation 
planning process in a more regional way so as to coordinate the plans 
of the affected states.
    I want to discuss briefly the damage that was done to the 
transportation system, how the local authorities and the Department of 
Transportation (DOT) acted to mitigate and repair that damage, and what 
we need to do as we move forward to reduce the severity of such natural 
disasters in the future. I want to make clear that any damage estimates 
I am citing should not be construed as requests for Federal funding. 
That is impacted by another set of issues, including statutory 
eligibility and the applicability of private insurance, that we are 
working with operators on to understand better where these questions 
are applicable.

Damage to the Transportation System
    Hurricane Sandy did not bring with it the powerful winds that some 
hurricanes have had. But it did bring with it an extremely powerful 
storm surge which, combined with high tides, caused a 14-foot storm 
surge in New York harbor that caused extensive flooding in New York, 
New Jersey, and Connecticut. Sandy had tropical force winds over an 
820-mile-wide area, and its ``destruction potential,'' as measured by 
the National Oceanic and Atmospheric Administration, measured 5.8 on a 
scale of 6.
    The most damaging impact of the storm, from a transportation 
standpoint, was on the highway, transit, and rail tunnels in and out of 
Manhattan. All seven of the subway tunnels under the East River 
flooded, as did the Hudson River subway tunnel, the East River and 
Hudson River commuter rail tunnels, and the subway tunnels in lower 
Manhattan. Three of the four highway tunnels into Manhattan flooded, 
leaving only the Lincoln Tunnel open. While some subway service was 
restored three days after the storm, the PATH train service to the 
World Trade Center was only restored on November 26, four weeks after 
the storm, and subway service between the Rockaway peninsula and Howard 
Beach is not expected to be re-opened for months.
    In New Jersey, commuter rail and transit damage included flood 
damage to 72 locomotives and 311 cars at the Meadowlands Maintenance 
Complex and Hoboken Terminal, damage to 3 moveable bridges, and damage 
to the catenary on the Gladstone line, which only returned to service 
this week. We are working with both New York and New Jersey to 
thoroughly assess the cost associated with the overall damage to subway 
lines and other transit equipment. Note that the recently-passed 
transportation reauthorization, MAP-21, authorized the Public 
Transportation Emergency Relief Program. That authorization positions 
the Federal Transit Administration to better assist its State and local 
partners in responding to disasters in concert with, but without 
duplicating the work of, the Federal Emergency Management 
Administration (FEMA), once funds are appropriated.
    Highways were extensively damaged in all the affected states, but 
particularly in New Jersey and New York. This includes damage to 
tunnels, movable bridges, and traffic signals, especially due to 
mechanical and electrical systems being submerged in salt water. In New 
Jersey, Route 35 along the Jersey shore was particularly hard hit, and 
in New York the Ocean Parkway in Nassau and Suffolk Counties was 
extensively damaged. Significant damage also occurred in Connecticut, 
Rhode Island, North Carolina, and Virginia. Hurricane Sandy also 
damaged roads on Federal lands in New York, New Jersey, Rhode Island, 
West Virginia, Virginia, Maryland, and North Carolina.
    While some highways were closed due to flooding and other damage, 
more people were trying to use the highways that were open. With much 
of the transit system shut down, gridlock quickly appeared on many 
roads, especially in Manhattan. Car-pooling restrictions were imposed 
on all the bridges into Manhattan (except the George Washington Bridge) 
to allow more traffic movement. Five petroleum terminals in New Jersey 
and New York were shut down due to flooding, and loss of electrical 
power caused the Colonial Pipeline terminal in Linden, New Jersey to be 
shut down. Shutdowns in pipelines and petroleum terminals led to 
shortages of gasoline and diesel fuel at service stations, and some 
stations that had fuel could not pump it because they lacked electrical 
power to operate their pumps. Sixty-seven percent of the service 
stations in the New York metropolitan area were closed on November 2 
due to lack of fuel or electrical power. Fuel shortages were worsened 
by fuel demands from people using emergency generators (in New Jersey, 
65 percent of customers lost power). As a result, many people who lost 
transit service also effectively lost the ability to use highways as 
well.
    The aviation system was also extensively damaged. Both LaGuardia 
and John F. Kennedy Airports flooded, and Newark Airport was also 
closed. The three major airports were able to restore normal air 
traffic operations by the end of the week. Some of the air navigation 
systems were located on piers out in the water and were severely 
damaged, and some electric power distribution systems may require 
immediate replacement or replacement prior to normal replacement 
schedules.
    Amtrak was fully shut down in the New York area for two days, and 
full service was not restored until November 19. Amtrak had four 
tunnels flood, causing significant damage to its signal systems and 
burning out pumps. Track was damaged by washouts, debris slides, and 
damage to ballast, and six hi-rail and work trucks were lost. Amtrak 
had to remove 80 trees from its right-of-way, including 15 that had 
damaged the catenary. Freight railroads in the region generally did not 
have serious damage, except for the NY/NJ Railroad (formerly the NY 
Cross Harbor Railroad), which had four trailers housing office space 
swept into the harbor, two float barges destroyed, and a float bridge 
damaged. We understand that Amtrak and NY/NJ Railroad will file 
insurance claims on their losses.
    The seaports were also adversely affected by the storm. All the 
seaports from Baltimore to Boston closed as a precaution on October 29, 
and all had re-opened two days later except for the Port of New York 
and New Jersey (PONY/NJ). PONY/NJ suffered from lack of electric power 
and damage to equipment that prevented it from fully re-opening until 
November 7th. Marine petroleum terminals were also damaged, making it 
impossible for several days to deliver petroleum products to customers. 
About 6,000 containers and 3,500 vehicles were diverted to other ports, 
primarily the Port of Virginia. Press reports of estimates by private 
consultants suggest that costs to privately-owned cargo shippers and 
carriers due to delays will be about $1 billion. The extent of cargo 
diversion was reduced because shipowners slowed their vessels at sea to 
delay their arrival.
    The pipeline system also suffered damage and lost electrical power 
to run pumps, leading to shut-downs of several days. In some cases 
pipelines with damaged automatic controls were operated manually with 
emergency generators to maintain deliveries. Natural gas transmission 
and distribution systems were much more heavily affected than petroleum 
product pipelines.

Emergency Responders, State and Local Government Agencies, and 
        Ordinary Citizens Responded Creatively to the Crisis
    Despite the widespread damage and dangerous conditions, emergency 
responders performed heroically in the face of the unprecedented 
destruction. They saved lives of people in danger at substantial risk 
to themselves. Moreover, ordinary citizens, transportation authorities, 
and government agencies in the storm-struck area responded creatively 
to the challenge. Water ferries between New Jersey and Manhattan 
quickly became a popular option, as did the East River Ferry after it 
resumed service on November 1. New ferry services were started between 
the Rockaways and Manhattan and between Staten Island and Manhattan, 
and alternative rail and bus service was provided. The Metropolitan 
Transportation Authority (MTA) implemented a system of ``bus bridges,'' 
or temporary shuttle bus networks, to replace the lost transit service 
through the East River subway tunnels. The New York City Department of 
Transportation established dedicated bus lanes on the Williamsburg and 
Manhattan Bridges, as well as on several Manhattan streets, to keep the 
buses moving. Bicycle ridership on the East River Bridges tripled. 
Transit authorities and customers used social media to keep informed of 
which transit lines were open and which were closed, and the MTA 
provided revised service maps to show which lines were operating. As 
highway tunnels were restored to service, they were restored first for 
transit buses, and later to all vehicles. The New York City Police 
Department stepped forward to enforce carpooling restrictions on 
bridges, regulate lines at gas stations, and regulate lines at bus 
stops. The Governor of New Jersey and the City of New York both 
established an odd/even gasoline rationing system to reduce lines at 
gas stations. Overall, states and local governments, and the people of 
New York and New Jersey, met the challenge in their typically 
indomitable spirit.

What Has USDOT Done to Assist the States and Cities Affected by the 
        Hurricane?
    The Department of Transportation is responsible under the National 
Response Framework, in coordination with the Federal Emergency 
Management Agency (FEMA), for coordinating Emergency Transportation 
issues as part of the overall Federal emergency response. Prior to 
Hurricane Sandy's landfall, our National Response Program staff 
deployed to FEMA's National and Regional Response Coordination Centers 
and to their Joint Field Offices. A wide range of DOT agencies 
responded immediately with the resources available to them to help the 
people and communities stricken by the hurricane.
    The Federal Highway Administration (FHWA) used its ``Quick 
Release'' Emergency Relief authority between October 30 and November 1 
to release $29 million to five states for emergency repairs: $10 
million each to New York and New Jersey, $4 million to North Carolina, 
$3 million to Rhode Island, and $2 million to Connecticut. These Quick 
Release funds are the first installment of FHWA's Emergency Relief 
assistance. Another $20 million was released to New York State last 
week. FHWA also expedited the movement of overweight and oversize loads 
into the affected area.
    The Federal Motor Carrier Safety Administration (FMCSA) issued an 
Eastern Regional Emergency Declaration, temporarily lifting hours-of-
service requirements and other regulations on interstate trucking 
carriers to speed the movement of emergency supplies into the affected 
area. DOT also established an Interstate Petroleum Transport Team to 
resolve issues that might impede speedy delivery of fuel and relief 
supplies to the affected region. For example, FMCSA connected FEMA and 
the Defense Logistics Agency with fuel haulers and other trucking 
carriers that could move fuel and equipment to repair electric power 
transmission facilities.
    The Federal Transit Administration (FTA) has provided technical 
assistance to affected transit authorities and has worked with FEMA 
through the General Services Administration's Federal Acquisition 
Service to procure 250 buses to replace lost commuter rail and transit 
service in New Jersey, particularly allowing commuters to take buses to 
ferry terminals for the trip into Manhattan. FTA also worked with the 
Chicago Transit Authority to secure signal equipment to replace 
equipment damaged by Hurricane Sandy.
    The Federal Railroad Administration (FRA) opened an Emergency 
Relief Docket before the hurricane made landfall that allowed FRA to 
provide waivers to its hours of service and equipment inspection 
requirements to facilitate response and recovery. FRA conducted a 
series of conference calls with affected railroads to assess their 
needs and process requests under the Emergency Relief Docket.
    The Federal Aviation Administration (FAA), despite damage to its 
Air Navigation Services equipment, was able to restore normal air 
traffic operations quickly by using emergency equipment and making 
necessary repairs and replacements. I would like to caution that FAA's 
cost estimates are still preliminary, because FAA continues to inspect 
its equipment to determine if permanent replacements need to be made 
and to ensure that no latent damage will cause the equipment to 
malfunction in the future. While the functionality of some equipment 
has been degraded, FAA constantly updates the aviation community 
through Notices to Airmen to advise pilots of current system status and 
restrictions related to equipment or airspace limitations. These 
adjustments ensure that a full margin of safety is maintained in the 
face of service degradations caused by system outages.
    The Maritime Administration (MARAD) activated two training ships 
from the New York and Massachusetts maritime academies to provide 
emergency relief support--the Training Ship Empire State from the State 
University of New York Maritime College and the Training Ship Kennedy 
from the Massachusetts Maritime Academy. MARAD also activated one of 
its Ready Reserve Force ships, the SS Wright, from Baltimore, MD. Over 
the past month, these vessels have housed and fed nearly 900 emergency 
responders every day--urban search and rescue teams, disaster medical 
assistance teams, DHS surge personnel, FEMA Corps volunteers, Red Cross 
and other non-governmental organization teams, and community relations 
teams. MARAD also consulted with the Department of Homeland Security 
(DHS) on issuing special purpose waivers of the Jones Act to facilitate 
deliveries of refined petroleum products to the New York/New Jersey 
area. MARAD consulted quickly with U.S.-Flag vessel operators to assess 
U.S.-Flag vessel availability before advising DHS on the need for 
waivers. Eleven vessels made use of the waivers and carried more than 
2.7 million barrels of petroleum products into the affected area. The 
U.S. Merchant Marine Academy at Kings Point was also affected by the 
hurricane, experiencing a 14-foot storm surge and loss of electrical 
power. Back-up power allowed basic services to continue until 
commercial power was restored.
    The Pipeline and Hazardous Materials Safety Administration (PHMSA) 
issued emergency special permits allowing manual control of fuel 
transfer systems at petroleum terminals. PHMSA also assisted in 
coordinating emergency repair of gas distribution lines, tracked the 
availability of fuel distribution facilities, monitored damage and 
restoration, authorized waivers of hazardous materials regulations to 
speed transport of relief supplies, and advised other government 
agencies on safe transportation of hazardous materials.
    Finally, 58 DOT employees were deployed at Joint Field Offices in 
New York and New Jersey to assist state and local governments and other 
infrastructure owners to restore transportation infrastructure.

Where Do We Go From Here?
    The devastation of Hurricane Sandy brings into sharp relief the 
need for us to do a better job of building a transportation system that 
can survive a disaster like this and recover quickly. I think we need 
to emphasize three ``R''s in thinking about how to rebuild in the wake 
of this disaster: Resilience, Redundancy, and Regionalism.
    First, we need to build our transportation systems so that they are 
more resilient in the face of high winds and storm surges. By far the 
most significant damage was due to flooding of tunnels. We need to 
design highway, rail, and subway tunnels so that they are more 
resistant to flooding. The MTA had taken some steps, in response to 
past flooding due to intense rainstorms and Hurricane Irene in 2011, to 
make the subways tunnels more flood-proof. These efforts have included 
raising station entrances and ventilating grates, improving pumps, and 
pre-deploying pumps and personnel to speed MTA's emergency response 
capability. But they were clearly not enough and we need to do more. We 
need to provide transportation agencies with better information and 
tools to enhance the resilience of their infrastructure. At DOT, we are 
conducting research to identify vulnerable infrastructure and ways of 
making it more resistant to damage. This includes a comprehensive study 
in the Gulf Coast region, another area vulnerable to extreme weather 
events, as well as several pilot projects to conduct system and 
infrastructure risk assessments, including one in New Jersey.
    Second, we need to build more redundancy into our transportation 
system, so that when one part of the system goes down, other parts can 
pick up the slack. We could see the importance of this in the reaction 
to Hurricane Sandy. When the subway tunnels went down, we had to rely 
more on transit buses. We enhanced the effectiveness of transit buses 
by creating more bus-only lanes. We relied more on ferry service, and 
established dedicated transit bus lines to transport passengers to the 
ferry terminals. Ferry service has been critical not only in the case 
of Hurricane Sandy, but in earlier disasters like the 9/11 terrorist 
attacks and the Northeast Blackout of 2003 as well. We relied more on 
walking and bicycling. We need to reduce the necessity of passengers 
substituting private automobiles for transit service; as we have seen, 
that approach leads to gridlocked roads and gasoline shortages.
    Third, we need to address these problems in a regional way. 
Particularly for a metropolitan area like New York, which extends 
across parts of three states, the need for a regional approach is 
critical. The Port Authority of New York and New Jersey, the North 
Jersey Transportation Planning Authority, and the New York Metropolitan 
Transportation Council, of course, provide venues for regional planning 
and coordination. Other coordinating mechanisms, such as the Northeast 
Corridor Commission, the I-95 Corridor Coalition, and the Coalition of 
Northeastern Governors, provide additional opportunities to coordinate 
transportation planning, but we need more than those.
    One promising effort is the FRA's NEC Future program--an effort to 
define, evaluate, and prioritize future investment alternatives for the 
Northeast Corridor through the year 2040. This program will develop a 
Passenger Rail Corridor Investment Plan to guide investments in the 
Northeast Corridor over the next 30 years. NEC Future gives us the 
opportunity to develop a more resilient rail network in the Northeast 
Corridor that provides redundancy for other passenger modes and that 
grows out of a regional dialogue with states and other stakeholders in 
the Northeast Corridor.
    Part of that regional effort is the Gateway Project to expand rail 
capacity from New Jersey into New York Penn Station. This project, 
which would double passenger rail capacity between Newark and New York 
and expand capacity at Penn Station by 50 percent, is vital to meeting 
the future transportation needs of the New York region and building in 
the redundancy needed to preserve transportation capacity in the face 
of events like Hurricane Sandy. It would involve building a new tunnel 
under the Hudson that would be designed to prevent flooding and to 
permit rapid recovery from emergencies and disruptions. It would also 
harden Penn Station and other rail tunnels against future flooding. We 
look forward to working closely with Amtrak, the states of New Jersey 
and New York, and local authorities in both states to complete this 
critically important project. It is an essential part of a regional 
approach, and an important example of the kind of resilience and 
redundancy we need to build into our transportation system--protecting 
the rail system and offering an alternative to air and highway capacity 
when the capacity of those systems is curtailed by storms and other 
emergency events.
    The National Freight Strategic Plan that is mandated by MAP-21 
gives us an opportunity to look at the resilience and redundancy needs 
of the freight system, and how they can be incorporated into our 
freight infrastructure investment programs. As states develop State 
Freight Plans, they need to reach out to neighboring states to 
coordinate their planning efforts. We need to make efforts to expand 
the regional coordination of these plans so as to build resilience and 
redundancy into an overall regional transportation plan.
    Hurricane Sandy has been a tragic but important wake-up call on the 
need to build more resilience, redundancy, and regional coordination 
into our transportation system. Last week, Senator Schumer called for a 
comprehensive study of the range of options available to protect New 
York harbor and the surrounding area from disastrous storms in the 
future. The Department of Transportation stands ready to work with our 
federal, state, and local partners, public and private, to address 
these needs in a regionally coordinated way.
    I thank the Subcommittee for inviting me to testify today and would 
be happy to respond to any questions that you have.

    Senator Lautenberg. So coming from where each of you has 
been in these past weeks, I know that there has got to be 
enormous frustration, enormous heartbreak in what you have seen 
and I'm sure each of you understands so intimately what the 
penalty is with having systems that cannot operate. You have 
used judgment and I think you have made good decisions. We will 
explore them a little bit here just to see what we can find out 
for the benefit of the record and our plans for the future.
    So, Joe Boardman, the President and CEO, Amtrak is going to 
talk about the damage directly to Amtrak caused by the storm 
and how we can better protect our rail system in the future. 
Mr. Boardman?

STATEMENT OF JOSEPH H. BOARDMAN, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, AMTRAK

    Mr. Boardman. Thank you, Senator. Thank you for your 
support for Amtrak for so many years. We understand what you 
do. And we thank all the Senators here.
    I think the first thing that I would like to say--and I do 
have written testimony and I will be very brief here to get 
through this for you--is that it also impacts both other 
Senators here. Senator Wicker, your Crescent Service was unable 
to complete its trip because of what happened in New York City. 
And the Empire Builder, while it continued on to Chicago, could 
not make the transfer no matter what the case was to get to New 
York City. And this is the time of year when those families 
that are scattered across the country really are bonded by the 
ability of Amtrak to move them, and that is something that is 
not captured in the dollars and the cents here.
    When we look at what we really lost in terms of revenue, we 
are at about $30 million just in terms of the few days that we 
were out of business, and then direct cost to get things fixed 
were another $30 million. So I think you are going to hear the 
smallest numbers today from Amtrak in terms of our actual 
costs, around $60 million of impact right this minute.
    Initially what we understood was that we were going to have 
a tail of impact of reduced revenues, and that has not 
happened. And one of the reasons that has not happened is that 
the real story here is the coordination and cooperation of the 
leadership that got together, and it is about the men and women 
of Amtrak, the men and women of New Jersey Transit, and the men 
and women of MTA and the Port Authority that delivered a no-
nonsense delivery of services for the future.
    We had four of the seven tunnels that go in New York 
plugged with water, and on those four tunnels, we also--and you 
have heard this before--had the electric system inundated by 
salt water which meant that we have and still have difficulties 
making those kinds of improvements.
    And then we had the flooded electrical substation called 
Sub 41 in Kearny, New Jersey that did not give us enough power 
to move the trains in and out of New York.
    But the real story for us to get done as quickly as we 
did--and before the end of October, we were returning service 
to Newark and then by early November, into New York, and even 
by the 2nd of November, we had service between Washington and 
Boston back--was the fact that we had funding in our general 
capital that we used after the lessons we learned of 2001, 9/
11, to invest. And we invested in standpipes and fire and life 
safety, and those helped us pump out the tunnels. And if they 
had not been there, Senator, we would be not talking just days 
but we would be talking weeks before we would have returned 
service to New York City. So the right decision was made to 
invest.
    Second, we took Recovery Act funds and we began to clear 
our right-of-ways early. We only had 80 downed trees on our 
right-of-way which allowed us again to move things back much 
quicker. So investment does work.
    We were lucky, though. We were lucky because this is 
century-old infrastructure, and it has got to be rebuilt. You 
asked for a response about that leadership, not just of folks 
here but all over the Northeast, and I heard it here and will 
not go through it again. It was about the people that did 
heroic things to make this come back.
    But enough is enough. It is time to repair, rebuild, and 
invest. We need to rebuild Substation 41. Substation 41 would 
have been done under ARC. It will be done under Gateway, but it 
needs to be done now. And our total ask here, what we are 
looking for to rebuild that, to plan for high density signal 
systems on the East River tunnels, which are four in number, 
and the need for us to really get the job done, is 336 million 
bucks. We need that investment now, not later. We have to take 
action and deliver, just like we did after 9/11, the things 
that are necessary for us to get this done today. And when I 
mean today, I mean we need to start moving, planning, and 
constructing.
    And one final project is absolutely critical to New York 
State, New Jersey, and even to Minnesota, and that is that we 
have to preserve the next two tunnels going into New York for 
the future. And they will be built and designed so that there 
is no water that can go in there. We cannot shut down the two 
tunnels under what transit people call the North River and I 
call the Hudson today at all. The only two ways in from New 
Jersey are through those two tubes. We need two more so that we 
can rebuild the existing tubes so we do not have this 
difficulty in the future. I need your help with that.
    I appreciate the time you have given me.
    [The prepared statement of Mr. Boardman follows:]

        Prepared Statement of Joseph H. Boardman, President and 
                    Chief Executive Officer, Amtrak

    Good morning, Mr. Chairman, and thank you for the invitation to 
testify today.
    As you know, Hurricane Sandy was a sudden and unprecedented event, 
leaving us no more than a couple of days to plan and prepare for impact 
and recovery. I think we came through it well, and I'd like to pay 
tribute up front to the men and women of Amtrak and to our partner 
carriers. All of these folks really came together and pooled their 
resources very effectively to prepare for the storm and get service 
restored once it had hit. They helped us and we helped them, and that 
cooperation was a very important part of the larger effort to get the 
region moving again in the aftermath of the storm.
    While we didn't get much time to prepare, I think we made good use 
of the time we had. Our Engineering staff began planning on October 25, 
while the center of the storm was still south of Florida. We fueled 
vehicles, and we positioned them along with materials and equipment to 
address likely problems with the electric traction and signal systems. 
We inspected areas that were known to be at risk for flooding, and we 
disabled several of the remotely controlled signal and switch 
complexes--what we call ``interlockings''--that were at risk from high 
water. On the 26th and 27th we positioned 22 repair crews for our 
electrical system at strategic spots, we removed critical equipment 
from low-lying areas, and we brought in generators and other equipment 
to ensure we had pumping capacity and backup power capacity at likely 
spots. We manned all of our communication centers to ensure that we 
were tracking events and coordinating the inspection teams that we 
dispatched to monitor the system's condition. In coordination with the 
other NEC commuter railroads, we made a deliberate decision to shut 
down the railroad on Monday, October 29, and this allowed us to bring 
equipment into the yards and park it, and kept us from having to deal 
with stranded trains and passengers.
    While I'm going to speak to the damage we had to deal with and our 
efforts to address it, I do want to stop before I go any further to 
highlight a couple of key points that I'm sure many of the other people 
here today will testify to. One is that we had an absolutely tremendous 
amount of cooperation and assistance from our partner railroads who 
were also affected--this includes Long Island Railroad, Norfolk 
Southern, CSXT Transportation, of course, and Metro-North and New 
Jersey Transit, and we worked with other carriers up and down the 
Eastern Seaboard. But the cooperation and teamwork in the New York area 
played a big part in the speedy restoration of service, and before I 
talk about the sterling work our folks did, I want to make sure that 
you know that our partners were with us every step of the way, and we 
appreciate all of their help.
    And we needed it, because Sandy lived up to billing. The storm 
surge in lower Manhattan inundated the West Side Yard and flowed back 
toward Penn Station. When it came to the Manhattan end of the North 
River tunnels it flowed down into them--ultimately some 3.25 million 
gallons of water flowed down into those two tunnels. The track damage 
was minor, but the signal system and the electrically-powered sump 
pumps were basically destroyed and required complete replacement. The 
East River Tunnels were more heavily damaged, with more significant 
track damage and a much higher degree of immersion, since they were 
nearly full--they had more than 7 million gallons of water in them, 
although the two parallel tunnels which are operated by the Long Island 
Railroad were fortunately not flooded.
    The Con-Ed power outages in Long Island deprived Penn Station and 
Sunnyside Yard in Queens of electrical power, freezing trains in place; 
other outages disabled the electrical system at various points south of 
Wilmington. The electrical and signal systems suffered damage both from 
high winds, which blew debris into wires and ripped down lines, and 
from water infiltration, which caused electrical shorts and other 
problems. The Kearny electrical substation that provides power to a 
section of the NEC Leading to the Hudson River tunnels was totally 
flooded. High winds damaged crossing gates and blew debris such as 
metal roofing onto the tracks. Debris also clogged drains, leading to 
pooling of water and requiring immediate cleaning to avert further 
damage. In some places, track and roadbed structure was flooded or 
eroded. Large movable components such as switches were jammed with 
debris; smaller movable components such as relays were destroyed by 
flying debris and required replacement. Many structures suffered damage 
from winds or water. Two New Jersey Transit stations served by Amtrak, 
Princeton Junction station and Trenton suffered from roof damage and 
flooding, respectively, while water infiltration at the Washington 
Union station control center required pumping. Approximately nine miles 
of the New York City-Albany line were flooded to just below track level 
by the Hudson River.
    I think we kept abreast of the accumulating damage pretty well, so 
we always had a picture of what the storm was doing and had done. 
Diesel locomotives and inspection cars patrolled the territory around 
the clock during and after the storm, to identify damage and assess 
risk of further damage. Most areas were inspected multiple times, for a 
total of nearly 2,353 miles of infrastructure inspection (Amtrak is 
responsible for maintaining 363 miles of the 457 mile NECmainline).
    Work began early on clearance and recovery. Trains of rock ballast 
were loaded and positioned prior to storm landfall on Monday morning to 
address erosion and flooding and the entire right-of-way was inspected 
during and after the storm to identify damage and ensure safety. Every 
movable bridge was inspected and as the storm moderated we were able to 
begin the work of recovery. We ultimately had to remove 80 trees from 
the right-of-way and repair the electrical system in 15 places--which 
is, for reasons I will get into shortly, fewer than we might have 
expected. There were two washouts to be replaced and a serious debris 
slide, but once the water receded, we were able to quickly and easily 
restore the four interlockings we shut down. CSXT helped us get a 
ballast train from Albany down to Trenton, and New Jersey Transit 
loaned us their ``Aqua Train'' which is very helpful in clearing light 
deadfall off the right-of-way and washing the ballast, so that we could 
keep the drainage-ways clear to ensure a solid and stable track 
structure. With a lot of support from our partner railroads, 
contractors, and our own workforce, which put in a lot of long hours 
under very difficult conditions, we were able to reduce our challenges 
to the Hudson River tunnels and the Kearny substation pretty quickly, 
and we restored service between Washington and Newark, New Jersey on 
Tuesday, October 31.
    The tunnels serving New York were, however, a different matter. 
They required pumping, and once the water level was down, they had to 
be dried out and thoroughly inspected. The electric traction systems 
were generally fine, because the water didn't get high enough to knock 
them out, but the signal systems and internal pumping systems were 
basically destroyed and required wholesale replacement. The Kearny 
substation was under water, and it had to be pumped out, cleaned out, 
inspected, and a lot of key electrical components had to be either 
repaired or replaced. We were able to reopen the southernmost of the 
Hudson River tunnels, known to the railroad as the North River tunnels 
on Wednesday, November 1, and with the support and assistance of Long 
Island Railroad, we were able to restore a limited Boston to Washington 
service on the evening of Friday, November 2. The East River tunnels 
were put back into service on November 10 and 11, and the northern 
North River tube came back into service on November 12. It took about 
four days to get the Kearny Substation restored, but that came back 
online on November 16. During this time, we were able to provide some 
assistance to our partners at Long Island Railroad, New Jersey Transit, 
and Metro-North, and I hope we were as helpful to them as they were to 
us.
    While the work that went into the recovery effort was absolutely 
tremendous, there's another aspect of it that I alluded to before, and 
that's ``the work we didn't have to do.'' I want to make sure I mention 
that, because I know how hard many members of this Committee have 
worked to ensure that our capital program is adequately funded. Over 
the last decade, Congress has invested substantial sums in our capital 
program. Some of this money has come in annual appropriations, and some 
came in the $1.3 billion grant Amtrak received directly under the terms 
of the American Recovery and Reinvestment Act (ARRA). While we're 
typically familiar with the contributions this funding makes to the 
most visible parts of our capital program--replacement of 
infrastructure or equipment that is in disrepair or in danger of 
``aging out''--it has also been used for programs that improve the 
resilience of our system.
    The first area is our Fire and Life Safety program for the tunnels 
into and out of New York. We realized in 2001 that Amtrak had some 
potential vulnerabilities associated with the New York tunnels, and I 
give my predecessors credit for the speed with which they moved to 
address these vulnerabilities once they were identified, and the work 
that was done to ensure that the improvements were funded. A standpipe 
system was installed; this was designed to allow the fire department to 
pipe water into the tunnels in the event of a fire. Vertical turbine 
pumps with a capacity of 700 gallons per minute were installed to 
assist with drainage, access stairways were rebuilt and a basket 
recovery system installed. Ventilation shafts were rebuilt and new 
ventilating plants installed at the tops of the shafts to ensure a 
sufficient supply of air into the tunnels.
    The wisdom of these investments became apparent when we found 
ourselves with four flooded tunnels. The access improvements allowed us 
to get down into the tunnels to inspect them; the standpipe system gave 
us a point to hook the pumps up to and a means to evacuate the water 
from the tunnels, and the turbine pumps helped us pump the water out of 
the tunnels. Finally, the ventilation system helped us get the diesel 
fumes from the pumps out of the tunnel and dry out the tunnels once the 
water was pumped out. These improvements meant a difference of days, 
and perhaps weeks, in the restoration of service into and out of New 
York, and up and down the East Coast.
    Similarly, one of the very first projects we undertook with ARRA 
money was the cleanup of our right-of-way. Trees are beautiful things, 
so this was not an easy task, but they're a challenge to a railroad, 
particularly if it's electrified like the Northeast Corridor is. 
Whenever you get a good strong wind, something blows down, and it 
doesn't necessarily need to be a whole tree. A dead limb can shut down 
the electrical or signal systems if it falls in the right place. So we 
undertook a right-of-way cleaning and clearing program as soon as we 
had the money we took on the task of undertaking the necessary pruning 
and tree removal. We've done about 230 miles of tree removal since 
2008, and the result wasn't a complete absence of deadfall--this storm 
was much too strong for that--but a manageable amount.
    Similarly, we did a lot of work cleaning out the culverts and 
ditches that carry runoff water away from our roadbed. Doing this 
ensures effective drainage, and prevents water accumulation and the 
challenges that come with it, such as erosion damage or the wholesale 
washout of track structure and electrical and signal components. We did 
have two washouts, but set against the magnitude of the storm, that's a 
pretty low number.
    So if there's a single idea I would ask the Committee to take away 
from this hearing, it's this: investment works. We may take the 
benefits of it for granted sometimes, but storms like this really 
illustrate the vital point, which is that investment buys more than 
just capacity--it buys resilience. That's a resilience the larger 
community needs in times like this, to help it recovery from the 
effects of the disaster.
    I say this because we have spent a great deal of money on this 
infrastructure, and I'm confident that we can keep it in service for 
decades to come. But storms like this highlight the fragility of 
century old structures, and the challenges that come when we're 
confronted with weather and conditions the designers never anticipated. 
They also highlight the lack of capacity. If we are going to continue 
to support the region and provide for its growth, capacity is going to 
be an issue, and we will need to address it. That means making the 
investments we need now for systems that will provide additional 
capacity of a day-to-day basis, and additional resilience in a crisis 
like this one.
    One lesson we've learned is that high density signaling in the East 
River Tunnels between New York and Queens would be a simple and 
comparatively inexpensive improvement that would greatly improve our 
operational flexibility. We have high density signaling in the two 
North River Tunnels between New York and New Jersey to accommodate the 
traffic, but it hasn't been installed in the East River Tunnels because 
there are four of them. Because the damage in the two flooded East 
River tunnels was more extensive, we have not yet been able to return 
them to full service, and that meant that the undamaged pair of tunnels 
has had to carry a heavier traffic load. We can do it, but high density 
signaling would allow us to carry a much heavier traffic load on the 
same infrastructure, and would provide a much greater degree of 
flexibility and resilience. We would like to obtain planning funding to 
begin the process of improving the signal system.
    While we've been able to restore Substation 41 at Kearny to 
service, it's clearly vulnerable to flooding and we want to rebuild it 
atop a platform that will be above the high water line, and we would 
like to make the platform's footprint large enough so that we could add 
additional electrical capacity at some point in the future to support 
our plans for additional capacity into and out of New York. We also 
need to improve the resilience of the infrastructure at Penn Station, 
so we can ensure that the station's infrastructure and power supply are 
capable of resisting a flood of the magnitude of Sandy.
    We need this because I believe we need the Gateway Program. As you 
know, Amtrak has a vision for expanded track, tunnel and terminal 
capacity in New York City, and you, Chairman Lautenberg, and other 
members of this Committee have supported it energetically. We've always 
known that the city needs more rail capacity, and now it should be 
clear that our rail transportation system as a whole needs more 
resilience. That means a better ability to resist damage, recover from 
an event, and return the system to service, and those requirements 
translate into more capacity, pure and simple. We will continue to work 
with the existing infrastructure, of course, but there are finite 
limits to what we can accomplish, and the southern entrance to the 
city's rail terminals is basically operating at those limits on a good 
day. To address these three infrastructure needs--improving our 
signals, hardening the infrastructure, and beginning the design and 
construction of the Gateway project--and to cover the estimated 
operating losses we incurred during the storm, Amtrak will need a total 
of about $336 million.
    We need a system that's robust enough to support our operational 
needs not just on good days, but every day. And for that reason, I 
would close by thanking Senator Lautenberg, the Committee and the 
Department of Transportation for all the support they have given us as 
we have developed and publicized this plan. We appreciate your support, 
and we look forward to working with you to making the Gateway Project a 
reality.

    Senator Lautenberg. Thanks very much, Mr. Boardman.
    Mr. Lhota is from MTA, a pretty big operation, and we are 
happy to have you here and ask if you would give us your view 
on the recovery efforts and what the damage looks like for MTA.

   STATEMENT OF JOSEPH J. LHOTA, CHAIRMAN AND CEO, NEW YORK 
             METROPOLITAN TRANSPORTATION AUTHORITY

    Mr. Lhota. Good morning and thank you, Mr. Chairman and 
other Senators here. And thank you for inviting me to testify 
before this committee on this critically important issue.
    I am the Chairman and CEO of the New York State 
Metropolitan Transportation Authority, which is the largest 
transportation provider in the country. Every day the MTA moves 
8.5 million people safely and securely to their jobs, their 
schools, shopping, medical appointments. You name it; we get 
them there.
    Our network includes not just the New York City subway 
system, but the New York City buses, the Staten Island Railway, 
the Long Island Railroad, and Metro-North, as well as seven 
vehicular bridges and two tunnels.
    Along with other transportation systems represented on this 
panel, the MTA is the lifeblood, as Senator Schumer said, of a 
$1.4 trillion regional economy, the largest in the country, 
which makes up 11 percent of the GDP of the entire country.
    Just over a month ago, Hurricane Sandy brought our system 
to its knees. We experienced a level of destruction that is 
completely unprecedented in our 108-year history. Left in the 
storm's wake were eight flooded subway tunnels and two 
vehicular tunnels, 12 subway stations with major damage, some 
of them absolutely destroyed. We lost an entire bridge and a 
rail line serving the Rockaways in Queens, 15 miles of damaged 
or destroyed signaling, and we had rail yards and maintenance 
shops underwater and damaged.
    Just as the superstorm was unprecedented, so was the level 
of our preparation, and under the leadership of Governor Andrew 
Cuomo, we shut down the entire system just for the second time 
in our 108-year history.
    As it turned out, even our preparations would not, actually 
could not, have protected our entire system from the full force 
of Sandy's wrath. At the height of the storm surge, the 
Governor and I met at the Hugh L. Carey Brooklyn Battery Tunnel 
in Lower Manhattan and what we saw there was truly 
unbelievable. We watched more than 86 million gallons of 
seawater flood and rush into the two tubes of that tunnel 
alone.
    Once Hurricane Sandy passed, our top priority was to 
restore service as quickly and as safely as possible. And I 
have to say this. I simply could not be more proud of the 
workers of the MTA, labor and management, who worked so well on 
behalf of all the people. We had buses up and running 7 hours 
after the storm. Nine hours after that, we were at a complete 
bus schedule. A few of our commuter rail lines were up and 
running in less than 24 hours, and we had limited subway 
service back in 36 hours.
    Due to the complete loss of the flooded tunnels under the 
East River, the subway service between Brooklyn and Manhattan 
was completely halted. So for 3 days, we had to improvise. We 
used 330 buses from our existing bus fleet to replace service 
for the 1.4 million customers who commute every day between 
Brooklyn and Manhattan.
    Once our tunnels were cleared and power was restored, most 
service was restored within a week. And today, most of our 
transit system is up and running.
    But let me be clear. We have not restored service to the 
full capacity. We are nowhere near normal operations, and that 
will not be for quite some time. It is important to remember 
that hundreds of millions of gallons of salt water completely 
inundated our system that is over 100 years old. We will be 
feeling the residual effect of this storm for months, if not 
years to come.
    In our efforts to restore service, we used over 80 percent 
of our inventory of equipment, nearly exhausting all of our 
replacement supplies. The useful life for many of our signals, 
switches, and relays have depleted exponentially. The South 
Ferry/Whitehall Station, a critical stop for riders coming in 
to Manhattan from Staten Island or for those workers on Wall 
Street was completely destroyed. The subway lines along the 
bridge connecting the Rockaway Peninsula to the rest of Queens 
is just gone. The subway tunnel for the R train connecting 
Brooklyn Heights to Manhattan still is not operational. We have 
subway lines running at slower headways, resulting in longer 
commutes and severe crowding.
    Nearly a half million of our customers either have no 
service, reduced service, or have to take alternative routes. 
To put that into perspective, that is equal to the entire 
populations of the cities of Miami, Cleveland, Atlanta, or 
Pittsburgh that have no transportation or have their commute 
significantly longer.
    While our preparations and quick recovery helped to limit 
the impact of our storm, our preliminary estimates total nearly 
$5 billion in damages and this figure could possibly rise. As 
you know, salt water and metal and salt water and electronic 
devices do not mix very, very well. After marinating for weeks, 
the useful life for many of our signals, switches, and relays 
have depleted exponentially. But this figure represents just 
what we need to get the system back to where we were the day 
before the storm hit. Over and above that, it is critical that 
we make the critical investments we need to protect our system 
from future storms.
    As President Obama has said, we must act and we must 
rebuild. When you consider the fact that the New York 
metropolitan region completely shuts down without the MTA and 
that that region makes up 11 percent of our country's GDP, this 
is clearly much more than a New York issue or a New York need. 
This is a national issue. It is a national need, and we are 
going to need the help of the Federal Government to help us 
rebuild the MTA.
    And, Senator, thank you very much for this opportunity, and 
I look forward to questions later.
    [The prepared statement of Mr. Lhota follows:]

   Prepared Statement of Joseph J. Lhota, Chairman and CEO, New York 
                 Metropolitan Transportation Authority

    Good morning, Chairman Lautenberg, Ranking Member Wicker, and other 
members of the Committee.
    Thank you for inviting me to testify on this critically important 
issue. I'm Joseph Lhota and I am the Chairman and CEO of New York 
State's Metropolitan Transportation Authority, the largest 
transportation provider in the country. Every day, the MTA moves eight 
and a half million people safely and securely to their jobs, their 
schools, shopping, medical appointments, you name it--we take them 
there.
    Our network includes the New York City Subways and Buses, the 
Staten Island Railway, the Long Island Rail Road and the Metro-North 
Railroad, as well as seven vehicular bridges and two tunnels.
    Along with the other transportation systems represented on this 
panel, the MTA is the lifeblood of a $1.4 trillion regional economy--
the largest in the country and making up 11 percent of the Nation's 
GDP.
    But just over a month ago, Hurricane Sandy brought our system to 
its knees. We experienced a level of destruction that is completely 
unprecedented in our 108-year history.
    Left in the storm's wake were eight subway tunnels and two 
vehicular tunnels that were flooded, some completely from floor to 
ceiling; 12 subway stations with major damage or completely destroyed; 
we lost an entire bridge and rail line serving the a critical subway 
line serving the Rockaways in Queens; 15 miles of damaged or destroyed 
signaling; rail yards and maintenance shops under-water and damaged--
all adding up to billions and billions of dollars in damages.
    Just as this superstorm was unprecedented, so was the level of our 
preparation. We knew it was going to be bad and we prepared for the 
worst. Under the leadership of New York Governor Andrew Cuomo, we shut 
down the entire system for just the second time in our 108-year 
history--suspending service on each of our five operating agencies, and 
closing our two tunnels and all seven of our bridges.
    As it turned out, even all our preparations would not--could not--
have protected our system from the full force of Sandy's wrath. At the 
height of the superstorm's surge, Governor Cuomo and I met at the Hugh 
L. Carey Brooklyn Battery Tunnel in Lower Manhattan, and what we saw 
there was truly unbelievable. We watched as more than 86 million 
gallons of seawater flooded the two tubes of that that tunnel alone.
    Once Hurricane Sandy passed, our top priority was to restore 
service as quickly and as safely possible. And I have to say this, I 
simply could not be more proud of the MTA labor and management and how 
they handled the storm.
    Even before the superstorm was over, they were out there repairing 
the system. We had buses up-and-running seven hours after the storm. 
Only nine hours after that, buses were running full-schedule. A few of 
our commuter trains were running less than 24 hours after the storm 
passed. Limited subway service was back 36 hours after the storm.
    Due to the complete loss of the flooded tunnels under the East 
River, subway service between Brooklyn and Manhattan was at a complete 
halt. So for three days, we had to improvise. We used 330 buses from 
our existing bus fleet to replace service for the 1.4 million customers 
who commute from Brooklyn to Manhattan every day.
    Some people chose to drive during this time and as a result, New 
York City was completely gridlocked--inundated with cars. When our 
network is running at full strength, it is estimated that the MTA keeps 
approximately 700,000 cars from entering New York City's Central 
Business District every day. And with our transit system crippled, cars 
didn't just ``block the box.'' They blocked the entire island of 
Manhattan.
    Once our tunnels were cleared and power was restored, most service 
was restored within a week. And today, most of our transit system is 
up-and-running.
    But let me be clear: While we have restored service, we are nowhere 
close to normal operations and won't be for quite some time. It's 
important to remember that hundreds of millions of gallons of salt 
water completely inundated a system that's over 100 years old. We will 
be feeling the residual effect of this storm for months, if not years 
to come.
    In our efforts to restore service, we used over 80 percent of our 
inventory of equipment, nearly exhausting all of our replacement 
supplies. South Ferry/Whitehall Station, which is a critical stop for 
those riders coming from Staten Island, as well as those riders that 
work near Wall Street, was completely destroyed. The subway line, along 
with the bridge, connecting the Rockaways Peninsula and the rest of 
Queens is just gone. The subway tunnel for the R train connecting 
Brooklyn and Manhattan still isn't operational. We have subway lines 
running at slower headways, resulting in longer commutes and severe 
crowding.
    Nearly half a million of our customers either have no service, 
reduced service, or have to take alternative routes. To put that in 
perspective, that's equal to the entire populations of the cities of 
Miami, Cleveland, Atlanta, or Pittsburgh having no transportation or 
having their commute become significantly longer.
    While our preparations and quick recovery helped to limit the 
impact of the storm, our preliminary estimates total nearly $5 billion 
in damages and this figure could rise. As you know, salt water and 
metal, and salt water and electronic devices, don't mix very well. 
After marinating for weeks, the useful life for many of our signals, 
switches and relays have depleted exponentially. But this figure 
represents just what we need to get the system back to where it was the 
day before the storm. Over and above that, it's critical that we make 
the critical investments we need to protect our system from future 
storms.
    As President Obama has said, we must and we will rebuild. New 
Yorkers are resilient and we always bounce back. When you consider the 
fact that the New York metropolitan region completely shuts down 
without the MTA . . . and that the region makes up a full 11 percent of 
our entire nation's GDP, this is clearly much more than a New York 
story, or a New York need. This is a national issue. A national need. 
And we're going to need the Federal Government's help to rebuild.
    Once again, Chairman Lautenberg, thank you for holding this 
important hearing and for giving me the opportunity to testify before 
the Committee. I welcome any questions you may have.

    Senator Lautenberg. We almost need the constant reminders 
about the national heirloom of this event. This is not just 
regional. It is not just a bi-State thing. This threads through 
our entire economy. And thank you very much for your testimony.
    Mr. Foye, you are the Executive Director of the Port 
Authority of New York and New Jersey. We will hear from you 
about the Port Authority's efforts to recover from damage to 
the authority's tunnels, trains, airports, and port.
    And I take a moment to remind you, Mr. Foye, that I was a 
Commissioner of the Port Authority before I came here, and 
actually I was driven to my interest here as a result of the 
traffic. The company I was running was ADP, a very large 
company, and we had vehicles crossing the river and they took 
longer and longer and longer to get to their destination and 
back. And were it not for the technology that now you see runs 
rampant through our lives, we never could have done it. But the 
situation in the New York region is really miraculous in so 
many ways, and I think the agency is a great agency, not 
without its faults.

    STATEMENT OF PATRICK J. FOYE, EXECUTIVE DIRECTOR, PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Foye. Well, Chairman Lautenberg, let me begin by 
thanking you for your service to our country and the private 
sector as a Commissioner to the Port Authority and in the 
Senate.
    Chairman Lautenberg and members of the Committee, thank you 
for holding this important hearing.
    On behalf of the Port Authority of New York and New Jersey, 
Senator Lautenberg, I want to thank you personally for your 
tireless support of the Port Authority and our region. It is a 
privilege today to testify before you and this esteemed 
committee.
    I also want to thank Governors Andrew Cuomo of New York and 
Chris Christie of New Jersey for their strong leadership 
before, during, and after Superstorm Sandy. We are truly 
fortunate to have such remarkable Governors leading the region 
through this incredibly difficult time.
    I am Pat Foye, Executive Director of the Port Authority of 
New York and New Jersey. For those unfamiliar with the agency, 
we operate what is the most important multi-mode transportation 
network in the world.
    Briefly our transportation assets include five airports, 
three of which comprise the busiest airport system in the 
country: JFK, LaGuardia, and Newark airports. We also maintain 
and operate four bridges, including the George Washington 
Bridge, as you know, Senator Lautenberg, the busiest vehicular 
in the world, and the Holland and Lincoln Tunnels which link 
New York and New Jersey. Our other assets include the world's 
busiest bus terminal, the largest port complex on the east 
coast, and a bi-State inter-rail system known as PATH.
    Annually more than 109 million people use our airports, 
which also handle more than 2.1 million tons of cargo. About 
465 million people use our Hudson River and Staten Island 
bridges and tunnels. Seventy-seven million people ride PATH, 
and about 3.4 million cargo containers move through our ports. 
All told, we transport nearly 700 million people a year and 
billions of dollars worth of goods through our vital and 
indispensable transportation network.
    As we all now know, however, Superstorm Sandy brought this 
critical transportation network to a complete halt just over a 
month ago. Knowing a potential for widespread damage, we took 
all possible precautions under the direction of our Governors.
    At the Port Authority we conduct exercises and drills 
throughout the year for all types of hazards, including major 
weather events. Days before Sandy arrived, we filled and placed 
thousands of sandbags, secured all items that could become 
flying debris, and installed floodgates. We also shut down 
vulnerable facilities a full day before the storm. For example, 
we took PATH out of service, brought our trains to higher 
ground, and closed our airports as airline tenants canceled 
10,000 flights.
    When Sandy struck, the devastation was great. The tidal 
surge that reached over 13 feet exceeded the 100-year flood 
level for Lower Manhattan by more than 2 feet. The storm 
crippled our transportation system, causing widespread flooding 
and power outages. We had no choice but to shutter most of our 
facilities.
    As soon as the storm subsided, we began assessing the 
damage at all of our facilities. Our ports suffered extensive 
flooding with toppled cargo containers, washed-out access 
roads, twisted rail track, barges and debris tossed about on 
piers and, less visible but perhaps more critical, damaged 
electrical infrastructure. The flooding at the ports disrupted 
the region's supply chain, stranding cargo for weeks, and 
caused significant damage, including the destruction of more 
than 15,000 automobiles by salt water.
    At the airports, LaGuardia alone had an estimated 100 
million gallons of seawater flood the airfield, and at one 
point, you could not distinguish parts of the aeronautical 
areas, our runways and taxiways, from Flushing Bay. Newark, 
JFK, and Teterboro airports also suffered significant flooding 
and power outages.
    The Port Authority bus terminal, the primary bus facility 
for New York City and the region, experienced a tremendous blow 
as commuter bus carriers completely halted their service, 
disrupting travel for over 200,000 daily passengers. The 
Holland Tunnel also flooded, forcing the closure of this vital 
transportation link between New York and New Jersey for days.
    As bad as the impact was to these facilities, it soon 
became apparent that PATH suffered the most severe blow. This 
vital interstate link, built more than 100 years ago, was 
completely devastated by flooding. The storm water soaked 
caissons containing racks of critical and decades-old signal 
and communications equipment with corrosive seawater, causing 
extensive and in some cases irreparable damage.
    Our PATH team worked around the clock to pump out tunnels 
and stations and go through the painstaking process of 
restoring power to the substations, testing and repairing or 
replacing equipment along the entire route. One of our workers, 
Tom O'Neill, risked his own life literally, jumping into 
several feet of flood water so he could restart a critical 
pump. Tom told me he was simply doing his job, much like the 
hundreds of PATH workers still toiling to restore full service 
to our network.
    Men and women of the Port Authority Police Department made 
lifesaving contributions.
    In spite of the devastating damage to our transit 
infrastructure, just one day after the storm, we were able to 
reopen four bridges, an action that was vital to reestablishing 
the connection between New York and New Jersey across the 
Hudson as quickly as possible.
    On October 31, remarkably less than 2 days after the storm, 
JFK and Newark airports reopened, and the following day 
LaGuardia Airport restarted flight operations.
    As for PATH, we were able to restore limited service one 
week after the storm and have since restored service to all our 
stations with the exception of Hoboken Station where today 90 
to 100 people are working. Hoboken terminal suffered the most 
extreme damage.
    The Port Authority has not traveled this difficult road 
alone. Many of the agency's partners, including USDOT, FRA, and 
FTA, have been incredibly supportive, as have Invensys Rail in 
Louisville, Kentucky; Trilogy Communications in Senator 
Wicker's home State of Mississippi, Pearl, Mississippi; Ansaldo 
in Pittsburgh, Pennsylvania; Alstom in Rochester, New York; and 
GE, which opened a factory in Puerto Rico at our request to 
manufacture PATH replacement parts that have not been made for 
years.
    What happens in our port district and to our port district 
affects the entire nation. Our losses from Superstorm Sandy 
ripple through the entire country. We must never lose sight 
that recovering from Sandy is not a local issue. It is a 
national matter.
    As Governor Cuomo noted, the past few years have shown that 
100-year storms are not reserved for once in a century. It is 
critical that we rebuild with greater resiliency and 
redundancy. We will rebuild, but we need the Federal 
Government's help.
    As you know, Senator Lautenberg, the Port Authority 
receives no taxpayer money from either New York or New Jersey. 
We rely solely on user fees, rents, tolls, and fares, and all 
of those revenue streams have their limitations. We are still 
assessing exact costs of repair and recovery, but clearly our 
needs are enormous. We face hundreds of millions of dollars and 
immediate repair costs and billions of dollars to install a 
mitigation project such as protecting and elevating electrical 
substations at PATH and the airports, as well as additional 
pumping capacity at LaGuardia and JFK airports to safeguard our 
system in the future.
    In conclusion, the Obama Administration and this Congress 
have been great partners throughout this process, and for that 
we are grateful. The costs, no doubt, will be high, but they 
would be unfathomable in terms of the cost of lost 
productivity, disabled economies, and a fractured 
transportation network should we fail to make those repairs and 
investments.
    The road ahead will be a challenge, but with the help of 
the Federal Government and our partners in the Federal 
Government, we know that recovery is possible.
    Thank you for holding this hearing, Senator.
    [The prepared statement of Mr. Foye follows:]

    Prepared Statement of Patrick J. Foye, Executive Director, Port 
                  Authority of New York and New Jersey

    Chairman Lautenberg, Ranking Member Wicker, and members of the 
Committee, thank you for holding this important hearing.
    Chairman Lautenberg, on behalf of the Port Authority of New York 
and New Jersey, I thank you for your tireless support of the Port 
Authority and the region. It is a privilege to testify before you and 
this esteemed committee.
    I also want to thank Governors Andrew Cuomo of New York and Chris 
Christie of New Jersey for their strong leadership before, during and 
after Superstorm Sandy. We are truly fortunate to have such remarkable 
governors leading the region through this incredibly difficult time.
    I am Pat Foye, Executive Director of The Port Authority of New York 
and New Jersey. For those unfamiliar with our agency, we operate what 
is arguably the most important multi-mode transportation network in the 
world.
    Our transportation assets include five airports, three of which 
comprise the busiest airport system in the country: JFK, LaGuardia, and 
Newark Airports. We also maintain and operate four bridges including 
the George Washington Bridge, the busiest vehicular crossing in the 
world, and the Holland and Lincoln tunnels, which link New York and New 
Jersey. Other assets include the world's busiest bus terminal; the 
largest port complex on the East Coast; and a bi-state commuter rail 
system known as PATH.
    Annually, more than 109 million people use our airports, which also 
handle more than 2.1 million tons of cargo . . . about 465 million 
people use our Hudson River and Staten Island bridges and tunnels . . . 
77 million people ride PATH . . . and about 3.4 million cargo 
containers move through our ports. All told, we transport nearly 700 
million people a year and billions of dollars worth of goods through 
our vital and indispensable transportation network.
    As we all now know, however, Superstorm Sandy brought this critical 
transportation network to a complete halt just over a month ago. We 
knew this storm would be an unprecedented weather event with the 
potential for widespread damage, and under the direction of our 
governors, we took all possible precautions.
    We conducted exercises and drills throughout the year for all types 
of hazards, including major weather events. Days before Sandy arrived, 
we filled and placed thousands of sandbags, we secured all items that 
could become flying debris, and we closed floodgates--in short, we did 
everything within our power to prepare. We also shut down vulnerable 
parts of our facilities on Sunday, October 28, a full day before the 
storm. For example, we took PATH out of service and brought our trains 
to higher ground. We followed suit at our airports, as airline tenants 
worked to cancel flights and move their aircraft out of the region.
    When Sandy struck, it wasn't long before our facilities were 
overwhelmed by the historic storm surge that followed. On the evening 
of Monday, October 29, as the storm swept through, the tidal surge 
eventually reached over 13 feet. To put this in context, the 100-year 
flood level for lower Manhattan is 11 feet. Superstorm Sandy exceeded 
this level by more than two feet.
    The destruction wrought by Superstorm Sandy on the Port Authority 
was unprecedented and it crippled our transportation system. Through 
the night and into early Tuesday morning, October 30, we saw widespread 
flooding and power outages, forcing us to close all of our facilities 
except for the Lincoln Tunnel and Stewart Airport--the only facilities 
largely spared from the storm in great part simply because of their 
geographical locations.
    With the airports closed and airline carriers cancelling more than 
10,000 flights, the ripple effect was far and wide. Fifteen to 20 
percent of all U.S. flights pass through the Port Authority's airports, 
and 18 percent of our Nation's international flights use New York as a 
gateway.
    As soon as the storm subsided, we began assessing the damage at all 
of our facilities. Our ports suffered extensive flooding with toppled 
cargo containers, washed-out access roads, twisted rail track, barges 
and debris tossed about on piers, and, less visible--but perhaps more 
critical--damaged electrical infrastructure. The flooding at the ports 
disrupted the region's supply chain stranding cargo for weeks, and 
causing significant damage, including the destruction of more than 
15,000 cars by the salt water.
    At the airports, LaGuardia alone had an estimated 100 million 
gallons of seawater flood the airfield, and at one point, you could not 
distinguish parts of the aeronautical areas--our runways and taxiways--
from Flushing Bay. Newark, JFK and Teterboro airports also suffered 
significant flooding and power outages.
    The Port Authority Bus Terminal, the primary bus facility for New 
York City and the region, experienced a tremendous blow as commuter bus 
carriers completely halted their service. You can imagine the 
disruptions this caused for the 200,000 daily passengers who rely on 
the bus lines that serve the PABT between New York City and all of the 
outlying areas across several states. Sandy's impact to the region's 
commuter transportation network at the terminal continues to this day. 
The Holland Tunnel also flooded, forcing the closure of this vital 
transit link between New York and New Jersey for days.
    As bad as the impact was to all of our facilities, it soon became 
apparent that PATH suffered the most severe blow. This vital interstate 
link that each year carries 77 million people between Newark, Jersey 
City, Hoboken, midtown Manhattan and lower Manhattan was completely 
devastated by flooding.
    The historic storm surge flooded the PATH tunnels that were built 
more than 100 years ago underneath the Hudson River, soaking caissons 
containing racks of critical and decades-old signal and communications 
equipment with corrosive seawater, causing extensive, and in some 
cases, irreparable damage.
    Our PATH team worked around the clock to pump out the tunnels and 
stations and go through the painstaking process of restoring power to 
the substations, testing and repairing or replacing equipment along the 
entire route. One of our workers, Tom O'Neill, risked his own well-
being jumping into several feet of floodwaters so he could restart a 
critical pump. Tom O'Neill, told me he was simply ``doing his job,'' 
much like the hundreds of PATH workers still toiling around-the-clock 
to restore full service to our network, something I will describe in 
more detail in a minute.
    First, let me give you a quick summary of our efforts to return the 
agency's operations to normal. By late Tuesday morning, October 30, 
just one day after the storm, we were able to reopen our four bridges, 
an action that was vital to re-establishing the interstate vehicular 
link as quickly as possible.
    On Wednesday, October 31, remarkably less than two full days after 
the storm, JFK and Newark airports reopened, and the following day, 
Thursday, November 1, LaGuardia Airport restarted flight operations. 
Our airport operations and maintenance crews, together with the FAA, 
pumped out and restored critical airfield lighting and electronics on a 
remarkable timetable. They cleared mountains of debris, including boats 
and barges that had washed up on our runways in order to get the 
airports reopened and to get critically needed goods and people flowing 
into the region again.
    By Friday, November 2, the Holland Tunnel, the interstate traffic 
artery between Jersey City and lower Manhattan severed by the storm, 
reopened to buses following one of many, many heroic efforts by Port 
Authority staff. In the case of the Holland Tunnel, our crews pumped 
out an estimated 20 million gallons of water from the tubes to return 
them to service.
    By Sunday, November 4, after the U.S. Coast Guard had surveyed the 
harbor to ensure the safety of ships, the first container ships began 
arriving at our ports, and by the following day, all the port 
facilities had reopened.
    As for PATH, thanks to round-the-clock efforts of our team, we were 
able to restore limited service on PATH on Tuesday, November 6, one 
week after the storm, between Jersey City and midtown Manhattan, and 
have since restored service to all our stations with the exception of 
Hoboken Terminal, which suffered the most significant damage. Hoboken 
Station serves 8.5 million passengers a year or the equivalent of 
29,000 people every weekday, so restoring this service is our number 
one priority. To enable crews to work on critically needed repairs, we 
are currently running service between 5 a.m. and 10 p.m. This allows us 
to complete work that would otherwise take months longer.
    The Port Authority has not traveled this difficult road alone. Many 
of the agency's partners including the USDOT, FRA and FTA have been 
incredibly supportive. I would be remiss if I didn't mention Invensys 
Rail, headquartered in Louisville, Kentucky, whose teams have worked 
day and night to build a replacement switch system for us. In addition, 
the folks at Trilogy Communications in Pearl, Mississippi, who supplied 
us with 3,200 pounds of a critical communications cable on 36 hours 
notice over a weekend, no less. Also, the employees of Ansaldo based in 
Pittsburgh, Pennsylvania are building critical components so that we 
can restore PATH service fully and GE opened a factory in Puerto Rico 
at our request to manufacture replacement parts that haven't been made 
for years.
    What happens in our Port District--and what happens to our Port 
District--affects the Nation. Now we are concerned that losses in 
productivity as a direct result of Superstorm Sandy also will ripple 
throughout the country.
    With PATH operating at less than full strength and as NJ Transit 
continues its efforts to return to full service, people are taking 
longer and longer to get to work and return home. What may normally 
have been a 45-minute commute for many has now doubled--or worse.
    We are talking about impacts to millions of people: Regional 
businesses and government entities employ more than eight million 
workers, many of whom cannot move about without public transportation.
    On a normal workday, up to one million travelers use the Port 
Authority's Interstate Transportation Network--whether by car, train, 
or ferry. Another example: Ten thousand people who work at LaGuardia, 
nearly half the workforce there, use public transportation. At JFK, the 
numbers are even greater: 55 percent of the workforce or more than 
35,000 people rely on mass transit. When the MTA shuts down or runs 
limited service, it has a direct impact on our ability to run our 
airports--and an incalculable impact on the livelihoods of our region's 
households. We are a densely populated region, the Nation's most 
concentrated economic center, all made possible by a vital, functioning 
transportation network.
    The PATH system alone provides a critical transit link across the 
Hudson River. Commuters use PATH to travel to their offices and work 
locations in Lower Manhattan and Midtown and the current outages have 
caused significant additional burdens on workers and employers by 
shifting commuter flows onto already congested crossings. On a normal 
workday, 392,000 people travel to work in the NY metro region from New 
Jersey, while 127,000 travel from NY to the New Jersey counties of the 
Port Authority region. These last weeks have been anything but normal.
    Our facilities have a tremendous impact on the regional and 
national economies. Our airports facilitate transport of passengers and 
cargo across the entire United States and the port facilities have been 
an increasingly important gateway for cargo on the Eastern Seaboard. 
Roughly 40 percent of all containerized cargo arriving at the port is 
destined for the Midwest or other locations in the country, so it is 
important that we do not lose sight of a central fact: recovering from 
Sandy is not a local issue for us; it is a national economic and 
security issue for everyone.
    We will rebuild, but along with the States of New York and New 
Jersey, the Port Authority will need the Federal government's help. The 
Port Authority receives no taxpayer money from either New York or New 
Jersey. We rely exclusively on user fees, rents and bonds, and all of 
those revenue streams have their limitations. We are still assessing 
exact costs of repair and recovery and determining what insurance may 
cover, but clearly our needs are enormous: We are facing hundreds of 
millions of dollars in immediate repair costs, and billions more in 
mitigation and resiliency measures.
    The Obama Administration and Congress have been such great partners 
throughout this process--and for that we are grateful. The costs no 
doubt will be high, but the costs--should we fail to make these repairs 
and investments--are unfathomable in terms of the cost of lost 
productivity, disabled economies, and a fractured transportation 
network.
    The road ahead will be a challenge to us all, but with your help 
and support, I am confident we will rebuild better and stronger.
    Thank you for all you have done, and for inviting me to speak 
today.

    Senator Lautenberg. Thanks very much.
    Mr. Weinstein, we know each other so well. We are neighbors 
at our professional office space across the street, and because 
of the densely populated character of our area, we have a lot 
of service to supply. And, Jim, I think you have done it well 
and we are proud of the people at New Jersey Transit and the 
sacrifices so many of them made to be on the job regardless of 
how they got to do it. So we are glad to hear from you.

       STATEMENT OF JAMES WEINSTEIN, EXECUTIVE DIRECTOR, 
                     NJ TRANSIT CORPORATION

    Mr. Weinstein. Thank you, Mr. Chairman. It is an honor to 
be here this morning, and I thank you for that, you and the 
other Senators. And it is an honor to have you as our senior 
Senator.
    New Jersey Transit, like its sister agencies, began 
monitoring and planning for Sandy days before the storm came 
ashore. Personnel were put on alert, buildings battened down, 
equipment marshaled based on the best available weather 
forecasts, historical experience, and other information we had.
    Shutting down and securing the largest statewide transit 
system in the country is a complex and time-consuming task. It 
takes at least 12 hours to shut down the railroad, and it must 
be done in a way that keeps our customers safe, our employees 
safe, and our equipment protected as best possible. Thus, the 
process must be completed hours before a storm's arrival.
    Nonetheless, despite the successful shutdown of our system, 
the damage Sandy inflicted on our transit network was 
unprecedented. Every one of New Jersey Transit's 12 rail lines 
was damaged. Systemwide, more than 630 trees fell on rights-of-
way, along with 23 miles of catenary and other wire that came 
down. 90-foot catenary poles 40 miles inland were snapped in 
half. 9 bridges, including two draw bridges, one of which you 
have seen in the illustrations today, suffered severe damage, 
including one that was knocked askew from its supports when it 
was hit by boats set adrift in the storm.
    In addition, key electrical substations were destroyed, 
while signal and other critical systems were impacted. The 
historic Hoboken terminal and other facilities, including New 
Jersey Transit's main maintenance and repair facility, were 
flooded. The damage to rail cars and locomotives is a 
particular focus of our ongoing post-storm recovery efforts and 
analysis.
    New Jersey Transit also suffered damage to the rights-of-
way of our three light rail lines around the state and some 
effects at our 17 bus garages. But there is no denying it. The 
brunt of the storm fell on our rail system.
    Altogether, we estimate the cost of curing Sandy's damage 
at nearly $400 million. That breaks down roughly to $100 
million for rail equipment, including rolling stock, and some 
$300 million to fix and replace track, wires, signaling, 
electrical substations and equipment, as well as to cover the 
costs of emergency supplemental bus and ferry service that we 
provided and lost revenue.
    Moreover, this $400 million does not include what we 
believe would need to be an $800 million investment necessary 
to make our system more resilient and redundant in the face of 
future storms like Sandy.
    New Jersey Transit staff, in close coordination with 
Governor Christie's office, continues to work with the Federal 
Transit Administration, USDOT, FEMA, Amtrak, the Port Authority 
of New York and New Jersey, private industry, and our insurance 
adjustors on all aspects of storm recovery. In the immediate 
wake of the storm, we created new bus and ferry service that 
carried thousands of commuters to and from New York while 
emergency repairs were made to the rail system. Rail workers 
fixed washouts, restrung catenary lines, removed trees, utility 
poles and even boats from rights-of-way and did so in record 
time.
    Thanks to their dedication and that of the 11,000 employees 
of our agency, I am proud to report that New Jersey Transit's 
12 rail lines are again running at more than 90 percent of full 
service and that we are back to full pre-hurricane service 
levels on our bus, light rail, and Access Link Para Transit 
modes.
    Most importantly, I want to express my thanks to the 
hundreds of thousands of daily customers for their patience and 
understanding while New Jersey Transit and, indeed, the entire 
state of New Jersey continues to rebuild after this terrible 
storm.
    Although the system has returned to near normal for our 
daily customers, repairs are continuing and will go on, 
frankly, for months. For example, two of the electrical 
substations that were submerged and destroyed by Sandy will 
take months to replace. There are no off-the-shelf replacements 
for such units. New substations have to be designed and built 
from scratch, a process that will take 6 to 9 months. Until one 
of these stations is restored, we can only run diesel service 
into Hoboken, diminishing our ability to serve the more than 
30,000 people who go into Hoboken every day and use the Port 
Authority's PATH system, when it returns, as a gateway to the 
financial district in Lower Manhattan.
    Another substation provides power to our Meadows 
Maintenance Complex in Kearny, New Jersey, and for our Rail 
Operations Center which is nearby. The maintenance complex is 
our main site for inspection and repair of our rail cars and 
locomotives, and we are now using generators to provide limited 
electric power. But this constrains our work there. It limits 
our ability to recover fully. The rail operations center is the 
central nervous system of the entire network and controls 
dispatching, track switches, signals, and the like, and if it 
is not functioning, our railroad is not functioning.
    On these and other repairs, we are working diligently with 
our suppliers and outside contractors to get new equipment. As 
I mentioned, in some cases such as the electrical substations, 
this requires actually designing and manufacturing new units 
from scratch.
    But it is important, Mr. Chairman, to understand that to 
simply repair these substations, the maintenance facilities, 
and other infrastructure to their previous state just is not 
enough. Money invested in preventing future storm damage will 
limit the bill for future storm relief, as well as ensuring 
that our transit system has a better chance of avoiding service 
interruptions in the future.
    For example, the electrical substations New Jersey Transit 
is looking at rather than just restoring is lifting them up, 
elevating them so they cannot be penetrated by flood waters in 
the future.
    Repairs and resiliency both require investment, Mr. 
Chairman. We appreciate the Committee's interest and any 
assistance the Committee, Congress, and the administration can 
provide in helping us renew New Jersey's transit system and 
improve it for the future. New Jersey relies on public 
transportation to work.
    We look forward to working with you to help restore our 
system and to protect its future.
    I thank you again for your willingness to hold these 
hearings, Mr. Chairman, and would be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Weinstein follows:]

      Prepared Statement of James Weinstein, Executive Director, 
                         NJ TRANSIT Corporation

    Good morning Mr. Chairman and Senators.

    Thank you for giving NJ TRANSIT an opportunity to appear before you 
today to outline the unprecedented damage Superstorm Sandy inflicted on 
NJ TRANSIT, the largest statewide transit agency in America. We share 
your interest in the need to further strengthen the resilience of our 
transportation system for future storms.
    Sandy was a massive and merciless storm that spanned hundreds of 
miles, and that increased in speed and strength as it made landfall a 
few miles south of Atlantic City. It was a storm whose wind-driven 
surge decimated the coast line and severely affected inland areas, 
taking dozens of lives in New Jersey, and destroying thousands of homes 
and businesses. Sandy knocked out power to millions for days and even 
weeks, and dealt crushing blows to New Jersey's transit and 
transportation network.
    Sandy's effects on New Jersey's transit system will be felt for 
months to come.
    With that said, let me begin by providing a brief overview of NJ 
TRANSIT.
    As the Nation's largest statewide transit agency, we provide more 
than 900,000 rides to our customers each day, across more than 5,300 
square miles of territory, from the southern tip of New Jersey to the 
Hudson River, and across the Hudson to Manhattan. NJ TRANSIT's more 
than 11,000 employees operate fleets of more than 2,100 buses, more 
than 1,200 rail cars and locomotives, and nearly 100 light rail 
vehicles. These fleets enable us to run more than 700 trains and some 
260 bus routes per day.
    Mr. Chairman, Sandy demonstrated all-too graphically that transit 
keeps New Jersey moving, and keeps our economy moving. When transit 
stops, large portions of our state and our region, and the economy, 
stop, too.
    Superstorm Sandy brought our transit system to a halt, not just in 
New Jersey but in the entire region. The intensity of Sandy's wrath was 
far beyond anything in the history of NJ TRANSIT. Indeed, Sandy's fury 
was beyond anything New Jersey had experienced from a storm in 
generations.
    NJ TRANSIT, like its sister agencies, began monitoring and planning 
for Sandy days before she came ashore. Personnel were put on alert, 
buildings battened down, equipment marshaled based on the best 
available weather forecasts, historical experience and other 
information.
    Shutting down and securing a vast transit system is a complex and 
time-consuming task. It takes a minimum of more than 12 hours and must 
be done in a way that keeps our customer safe, our employees safe, and 
our equipment safe. The process has to begin--and be finished--long 
before a storm's arrival.
    Despite the successful shutdown of the NJ TRANSIT system, the 
damage Sandy inflicted on our transit network was unprecedented.
    Sandy damaged every one of NJ TRANSIT'S 12 rail lines. System-wide, 
more than 630 trees fell on rights-of-way, along with 23-plus miles of 
catenary power and other wire. Ninety-foot catenary poles 40 miles 
inland from the coast were snapped in half. Nine bridges, including two 
major draw bridges, suffered severe damage, including one that was 
knocked askew from its supports when it was hit by boats set adrift in 
the storm. Nearly eight miles of track and roadbed were washed out, 
much of it along our hardest-hit North Jersey Coast Line. The Coast 
Line was where you may have seen pictures of the large fishing boats 
and a metal shipping container left perched atop the tracks on railroad 
bridges over coastal rivers.
    In addition, key electrical substations were destroyed, while 
signal and other critical systems were affected. The historic Hoboken 
Terminal and other facilities, including NJ TRANSIT's main maintenance 
and repair facility, were flooded. The damage to a number of rail cars 
and locomotives is a particular focus of our ongoing post-storm 
analysis.
    NJ TRANSIT also suffered damage to the rights of way of our three 
light rail lines around the state, and some effects at our 17 bus 
garages. But there is no denying the rail system took the brunt of 
Sandy's wrath.
    Altogether, we estimate the cost of curing Sandy's damage at nearly 
$400 million. That breaks down roughly into a little more than $100 
million for rail equipment, including rolling stock, and some $300 
million to fix and replace track, wires, signaling, electrical 
substations and equipment, as well as to cover the costs of emergency 
supplemental bus and ferry service, and lost revenue.
    This $400 million does not include the $800 million we believe is 
necessary to mitigate and harden the transit system to make it more 
resilient in the face of future storms like Sandy.
    I would be remiss if I did not also stress to the Committee that 
the work done by the men and women of NJ TRANSIT after the storm, and 
their colleagues at the MTA and the Port Authority, have been nothing 
short of Herculean.
    Mr. Chairman, the workers of NJ TRANSIT put our systems back on the 
streets and the rails beginning within hours of the storm's passing. NJ 
TRANSIT staff worked with Governor Christie and his Administration, 
with the Federal Transit Administration, FEMA, Amtrak, private industry 
and our insurance adjusters on all aspects of storm recovery. Notably, 
we worked together to quickly create new bus and ferry service that 
carried thousands and thousands of commuters to and from New York each 
day, while emergency repairs were made to the rail system. Rail workers 
fixed washouts, restrung power lines, removed trees, utility poles and 
even boats from rights-of-way, and did so in record time.
    Thanks to their dedication, I am proud to report that NJ TRANSIT's 
12 rail lines are again running more than 90 percent of full service, 
and that we are back to full, pre-hurricane service levels on our bus, 
light rail and Access Link Para transit modes.
    I also want to express my thanks to our hundreds of thousands of 
daily customers, for their patience and understanding while NJ TRANSIT, 
and, indeed, the entire state of New Jersey, continues to rebuild after 
this terrible storm.
    Although the system has returned to near normal for our daily 
customers, repairs are continuing and will go on for a number of 
months. Transit infrastructure and equipment is often large and almost 
always complex.
    For example, two of the electrical substations that were submerged 
and destroyed by Sandy's flood waters will take months to replace. This 
is because these are large, custom-ordered pieces of equipment. There 
are no ``off-the-shelf'' replacements. New substations have to be 
designed and built from scratch, a process that will take six to nine 
months at least.
    The consequences of the loss of just these two substations are 
significant. One is necessary to provide overhead catenary power for 
our Hoboken Terminal and yard. Until it is restored, we can only run 
diesel service in and out of Hoboken. This greatly diminishes our 
ability to serve the more than 30,000 thousand customers who go to and 
from Hoboken each day.
    Another substation provides the power for our Meadows Maintenance 
Complex in Kearny, New Jersey, and for our Rail Operations Center 
nearby. The maintenance complex is our main site for inspection and 
repair of rail cars and locomotives. We are now using generators to 
provide electric power, but they cannot provide enough electricity to 
operate the maintenance facility at 100 percent, thus hampering our 
work there. The rail operations center is the central nervous system of 
the entire rail network, controlling dispatching, track switches, 
signals and the like. And it, too, is now operating on generator power.
    On these and other repairs, we are working diligently with our 
suppliers and outside contractors to get new equipment. As I mentioned, 
in some cases, such as the electrical substations, this requires 
actually designing and manufacturing new units from scratch.
    Mr. Chairman, as you and this Committee have noted, it is vital 
that as NJ TRANSIT makes the repairs necessary to return our transit 
system to its pre-Sandy state of good repair, we also make our system 
more resilient to such super storms.
    To simply repair substations, maintenance facilities and other 
infrastructure to their previous state would be an abrogation of our 
duty to our customers and the citizens and taxpayers of our states and 
of our Nation. The old saying is that an ounce of prevention is worth a 
pound of cure. In this case, money invested in preventing future storm 
damage can reduce the financial cost of future emergency storm relief--
as well as ensuring that our transit systems have a better chance of 
avoiding service interruptions that disrupt the lives of our residents 
and undercut the resiliency our economy.
    To return to the example of the key electrical substations, NJ 
TRANSIT is looking at steps such as moving them out of harm's way, or 
elevating those that cannot be moved to be above the level of not just 
100-year storms, but super storms.
    Repairs and resilience both take funding. We appreciate the 
Committee's interest and any help the Committee and the Congress and 
Administration can provide in helping us renew New Jersey's transit 
system, and improve it for the future.
    Thank you and I will be happy to answer any questions you might 
have.

    Senator Lautenberg. Thanks very much.
    We are under fairly severe time pressure, but the testimony 
from each one of you was so important I did not want to cut 
short your testimony despite the fact that we went a little bit 
over time. So we will try to get the questions out there and 
get them answered fairly quickly.
    And I make a note, Mr. Foye, that when the three airports 
that you talked about in your testimony, among the busiest in 
the country, do not equal today's passenger traffic that Penn 
Station, New York has in the same day. Try it. It is really a 
delight to walk through the space.
    Mr. Foye. Chairman Lautenberg, I travel through Penn 
Station every day, along with 500,000 other people--600,000. I 
am corrected.
    [Laughter.]
    Mr. Foye. And I realize it is a critical piece of 
transportation infrastructure.
    Senator Lautenberg. Absolutely.
    I want to ask Mr. Weinstein. This is a question that has 
been in the news and they questioned about whether restoring 
the passenger rail cars at these two low-lying rail yards was 
made. Both the sites experienced severe damage. What prompted 
the decision to store the rail cars at those sites, please?
    Mr. Weinstein. Yes, Mr. Chairman. The decision to put the 
equipment in those spots--first of all, the Meadowlands 
Maintenance Complex, which is the one in Kearney, at any given 
time probably has a couple of hundred cars there lined up for 
inspection, for maintenance, repair, and all of that. But I 
think that in making the decisions where we put equipment--and 
we put it in about 20 locations around the state, in rail yards 
in three states, in New York and Pennsylvania and in our own 
state. But based on the information that we had in terms of 
what the likelihood of flooding occurring at the Meadowlands 
Maintenance Complex or at the part of Hoboken terminal where 
the equipment was parked, they indicated that there was a 
likelihood in the 80 to 90 percent range that no flooding would 
happen there. And that, combined with the history that the 
Meadowlands maintenance facility has never flooded in the 
history of our railroad, led us to conclude that that was the 
appropriate place to put the equipment.
    Now, obviously, we are informed by this storm and we will 
make adjustments in the future. But based on the information we 
had at the time we had to make the decision--and I point out 
that it takes a long time to shut down our system, as it does 
all of these systems, 12 hours. When we had to make the 
decision to shut it down at around noontime and we started to 
shut down around 2 o'clock on Sunday, which was well before the 
storm hit land, this was the best decision especially in view 
of the fact of what happened last year with Hurricane Irene 
when we stored an awful lot of equipment at our Morrisville 
yard in the Northeast Corridor in Morrisville, Pennsylvania 
just south of Trenton, and the Northeast Corridor flooded. And 
it stranded that equipment and prevented us from restoring the 
kind of service that you need, that our customers needed, that 
the region needed, that the economy needed. That is one of the 
responsibilities is in returning to normalcy, getting service 
back as quickly as possible, and that is another factor that 
informed our decisions.
    Senator Lautenberg. Some of that equipment was relatively 
new, up-to-date equipment that was stored there?
    Mr. Weinstein. Yes, sir. I mean, we had some new dual-mode 
locomotives there, some of which, frankly, had not even been 
accepted yet that were damaged. Water penetrated up to the 
axles. It requires both common sense and good maintenance, as 
well as FRA rules, that when the bearings are penetrated, they 
have to be replaced. So all of that equipment has to be 
replaced. We had about 80 multi-level passenger cars that 
flooded, and because they are lower than our other equipment, 
it penetrated the actual cabin.
    Senator Lautenberg. It is easy to second guess, but based 
on the options, Mr. Weinstein, it did not sound like there were 
other choices to be made.
    Mr. Weinstein. I think that we are constrained with the 
choices that we have, Senator. We will, obviously, develop, 
based on the information we had, other possible alternatives. 
But if you lay a flood plain map over our railroad in New 
Jersey, there are very few places that are not at some point 
under some circumstance prone to flooding. And those areas that 
are not are subject to downed trees, downed wires. Mr. Boardman 
talked about 11 trees coming down in the Northeast Corridor. I 
had 630 trees come down. And if that starts coming down on 
equipment, it damages the equipment every bit as badly as 
flooding would.
    Senator Lautenberg. Across the panel, Sandy taught us 
something, a harsh lesson, about the inability of our aging 
infrastructure to handle such severe weather events. There is 
no indication that this could not be replicated in the future. 
The magnitude, the devastation, the winds, the whole thing were 
impossible to guess in advance of the occurrence. But we now 
are, unfortunately, wiser as a result.
    So what do we do about rebuilding? In a way I do not even 
like the word ``rebuild'' because there are changes in 
technology, there are changes in planning.
    I spoke to the Governor, and let it be known in this public 
arena that I commended the Governor for his leadership in this 
thing. And we put aside the pitchforks and picked up the 
shovels together. So it was better.
    So how do we go about this? And unfortunately, again the 
time is so limited. What are the choices that we make about the 
way things were or what we have to do to improve our 
infrastructure?
    Mr. Boardman. Senator, I would make one point, and I 
promise it will be one and I will pass it on because I know we 
are short on time.
    We need now to make sure we guarantee access from New 
Jersey into New York with a new tunnel box under Hudson Yards, 
which is the West Side yards, before real estate development 
overtakes us. That is going to cost us 120 million bucks. We 
need to do that right now, sir.
    Mr. Lhota. Senator, I think it is really important, as you 
and the Congress and the administration are looking to put 
together a package that the states of New York, New Jersey, and 
Connecticut will be able to get what they are requesting, as 
well as all of the flexibility that they need to get what needs 
to be done.
    For example, we need to completely rebuild the South Ferry 
station, and in the process of doing that, we also need to 
think about how much we need to do to prevent this from 
happening again. And I know all three states are coming 
together. Governor Cuomo has put together a Commission as to 
what we can do to prevent these surges and bring the best minds 
together to determine what we need to do to get that done.
    But we need to do it comprehensively. It needs to be the 
three States. It needs to be all the local governments, and it 
needs to be the private sector. The private sector needs to be 
involved because one of the things that we have not talked 
about today is billions and billions of dollars of private 
property was also destroyed by this storm. And so I think it is 
really important, as the legislation is being talked about, as 
the supplemental resolution, understanding how broad this 
problem was.
    We will find a way to fix this. We will find a way to get 
back to where we were the day before the storm. But what is 
really important is we all come together and try to figure out 
when this happens again, that we do not have this damage and we 
allow our economies to continue to operate immediately after 
the storm.
    Mr. Foye. Senator, I would offer three suggestions.
    First, it is critical to remember that the New York-New 
Jersey region, including Connecticut, accounts for well over 10 
percent of the gross domestic product of the country, well in 
excess of $1 trillion. Protecting that and the tax revenues to 
the Federal, State, and local governments that that economy 
generates is critical. That tax-generating and wealth-creating 
sector was basically shut down for days and in some cases weeks 
by the storm.
    Second, building to the standards in effect the day before 
the storm is not only impossible, Chairman, but would be cost-
ineffective. Take the case of PATH. Rebuilding an 80-year-old 
signal system at the Hoboken caissons--not only can it not be 
done, it would be impossible to do it.
    Last, research by the American Society of Civil Engineers 
suggests that the return from mitigation spending, especially 
with respect to flooding, is a national return of 5 to 1, a 14 
percent return if you are assuming a 50-year time period. Given 
that these are long-lived transportation infrastructure assets, 
the return to the local, State, and Federal Governments of 
mitigation spending is going to be substantial but would also 
protect this huge part of the Nation's economy.
    Mr. Weinstein. Senator, at the risk of repeating what has 
been said, I think clearly that mitigation is critical. We 
cannot just rebuild what was there not only because it may not 
be physically possible, but it would be, frankly, foolish to do 
so in my opinion. We need to build a system that is going to 
serve us well into the future and not something that is just 
going to get us back to where we were yesterday.
    Second, we work together as a region. Mr. Boardman's system 
connects to my system, connects to the Port Authority's system, 
connects to the MTA system, and if we are not working together, 
then the system is not working. And if the system and the 
network are not working, the region is not working.
    And finally, Mr. Chairman, I would suggest to you that on 
the issue of an additional tunnel, as you know, New Jersey 
Transit and New Jersey have recognized right from the start 
that we are going to need additional capacity going under the 
Hudson River. We are working with Amtrak talking about this. I 
know we have had discussions with you. And we need to be 
looking to the future and making sure that we are making the 
right investments not only for our State but for the region and 
for the country.
    Senator Lautenberg. Thanks very much.
    Time forces us to conclude. So we are going to keep the 
record open for any questions that are submitted to you and 
would ask for a prompt response within, let us say, a week 
after you get them.
    Thanks very much to each one of you. You have got important 
jobs. I admire what you have done. And I hope that when we next 
have this kind of review that we will talk about the old days. 
This is not a personal thing with me. But the old days, when we 
had that terrible storm, and look how wonderfully everything 
operates now. Thank you very much.
    [Whereupon, at 12 p.m., the hearing was adjourned.]


                            A P P E N D I X

   Prepared Statement of Commissioner James P. Redeker, Connecticut 
                      Department of Transportation

    The Connecticut Department of Transportation (ConnDOT) is pleased 
to share with the Subcommittee on Surface Transportation, and Merchant 
Marine Infrastructure, Safety, and Security the impact of the Hurricane 
Sandy on Connecticut's transportation system.
    The Connecticut Department of Transportation is truly a multi-modal 
state agency responsible for all aspects of the planning, development, 
maintenance and improvement of transportation in the state. 
Connecticut's transportation system includes approximately, 21,295 
miles of improved roads (of which approximately 3,716 miles are 
maintained by the Department); 5,471 state and local bridges; Bradley 
International Airport, which is New England's second largest airport, 
and five other State-owned airports together with numerous municipally 
and privately owned airports; New Haven Line rail commuter service 
between New Haven and New York City and related points, operated by MTA 
Metro-North Railroad which provides 289 weekday trains; Shore Line East 
rail service between New London and New Haven and on to Stamford, 
operated by Amtrak which provides 26 weekday trains; and publicly and 
privately owned bus systems which operate 1,102 vehicles. The 
Department also operates a state pier complex in New London, two 
ferries, and numerous facilities such as transit stations, highway 
garages, and highway rest stops.
    In 2011, the State of Connecticut was hit with both Tropical Storm 
Irene in August and a Nor'easter at the end of October. Shortly after 
the 2011 storms, Governor Dannel P. Malloy created a working group 
known as the ``Two Storm Panel'' to review the preparedness, response 
and recovery efforts of those storms. The Panel was also charged with 
producing a set of recommendations on how the state and its partners 
can improve the preparedness and response to natural disasters. The 
Panel, which was comprised of eight members with backgrounds in the 
military, disaster relief, municipal government, non-profit and labor 
sectors, held nine public meetings, during which they received 
extensive testimony from a number of experts on a range of issues 
impacted by emergency situations.
    In an eerie repeat of the 2011 storms, Connecticut was hit by back-
to-back storms in 2012--Hurricane Sandy, which started on Monday, 
October 29, 2012 and then a major snowstorm just a week later that 
dumped more than a foot of snow in some parts of the state on November 
7, 2012. Once again, Connecticut residents were coping with extended 
power outages, downed trees, suspended rail operations, and flooded and 
treacherous roads.

Pre-Storm Sandy Preparations
    Advance planning and preparation facilitated a quick response/
recovery by the agency and prevented damage to major assets of the 
transportation system in Connecticut.
    After the two storms in 2011, the Department began in earnest a 
comprehensive tree trimming program throughout the state, as did the 
major utilities in Connecticut.
    Prior to Storm Sandy, ConnDOT coordinated with the Department of 
Energy and Environmental Protection (DEEP) to determine what temporary 
and emergency authorizations have been issued to cover potential storm 
damage.
    Our highway operations bureau began preparing for Storm Sandy four 
days before it was to hit. All facilities were prepared and equipment--
from loaders and bucket trucks to chippers and chain saws--were all 
fueled and readied when needed. Two Safety Advisors were deployed to 
the shoreline area for the duration of the storm.
    The Department closed two District Maintenance garages closest to 
the shore and evacuated equipment and operations to alternative 
locations deemed safer but still in the vicinity of anticipated 
impacted areas.
    In anticipation of flooding from storm surges, ConnDOT directed 
Metro-North to move rail cars from New Haven to three different 
locations to ride out the storm--Bridgeport and Stamford, Connecticut 
and Grand Central Station in New York. Low floor buses were also 
evacuated from the Stamford bus facility.
    ConnDOT coordinated evacuation activities for cities along the 
coast.

Storm Actions
    Metro-North and Amtrak suspended service at approximately 9:00 p.m. 
on Sunday, October 28, 2012 and both railroads pre-positioned track, 
power and signal crews to expedite the storm recovery process. 
Statewide bus service was suspended at midnight on Sunday October 28, 
2012.
    All moveable bridges were closed for the storm and construction 
projects were secured to minimize damage.
    The ConnDOT website was modified to provide real-time road closure 
information on a statewide highway map, and regular updates on road and 
transit conditions were provided.

Post Storm Sandy
    There were a total of 286 full road closures during the storm. 
Within 12 hours, all but three roads were reopened to the public, and 
those were due to extensive impacts from downed power lines.
    The day after the first storm, ConnDOT began assessing, fixing and 
clearing damage and continued throughout the week. Every municipality 
in the State was contacted by the Department and offered assistance if 
needed. Labor and equipment was also made available for mutual aide to 
New York and New Jersey.
    Bradley International Airport remained open for the duration of the 
storm although most carriers had suspended commercial service on 
Monday, October 29, 2012 by about 10:30 a.m. Service resumed on a 
staggered basis almost exactly 24 hours later at 10:30 a.m. on Tuesday, 
October 30, 2012. By Wednesday, air carrier operations were 75 percent 
back to normal. Damage at Bradley was limited to a radio antenna 
located on the roof that fell through a 4, wide by 20, long skylight. 
Preliminary estimate of cost to repair--$6,000.00. The only other 
damage suffered at Bradley was some minor roof paneling over a tug 
tunnel that came loose during the high winds at the peak of the storm. 
Estimated cost to repair--less than $1,000.00.
    Three of the five State owned and operated general aviation 
airports also closed. Groton-New London sustained major flooding and 
the Engineered Material Arresting System (EMAS) safety zones were 
completely submerged and compromised. The cost to replace the damaged 
EMAS beds is estimated at $10 million.
    Metro North. The New Haven Line (main line) sustained significant 
damage to catenary and signal systems from downed trees. The Waterbury, 
Danbury and New Canaan Branches also sustained damage due to downed 
trees.
    Service on the New Haven Line gradually resumed on Thursday, 
November 1, 2012 with limited service between Stamford and Grand 
Central Terminal. Regular weekday service resumed between New Haven and 
Grand Central Terminal on Friday, November 2, 2012. Free fares were 
offered on both Thursday, November 1 and Friday, November 2 on the New 
Haven Line.
    The New Canaan Branch Line sustained significant damage. Service 
was not resumed until November 9, 2012 necessitating bus replacement 
service for commuters. The Danbury and Waterbury Branch Lines resumed 
regular weekday service on Monday, November 5, 2012.
    Amtrak. Amtrak right-of-way on both the Northeast Corridor and the 
Hartford Line sustained damage from downed trees. Shore Line East 
Service resumed on Thursday, November 1, 2012. The Northeast Corridor 
(Boston to New York) operated limited regional service between Boston 
and New Haven on Thursday, November 1, 2012. A special operating 
schedule for both Acela and regional service was initiated on Friday, 
November 2, 2012. Regular Acela and regional service was resumed on 
Saturday, November 3, 2012.
    Amtrak operated special schedules between Springfield and New Haven 
on Thursday, November 1, 2012 and close to regular schedule between 
Springfield and New Haven and New York, Penn Station on Friday, 
November 2, 2012.
    Freight. Minimal damage occurred on the freight lines within the 
state.
    Preliminary estimates of the damage sustained to the federal-aid 
highways on the State system range from $2 million to $6 million for 
repairs to a seawall and to repair a moveable bridge. ConnDOT requested 
a ``quick release'' of Emergency Relief Funding through the Federal 
Highway Administration on November 1, 2012 in the amount of $2 million, 
to assist in the cost of repairing damages and received approval two 
days later.
    The Department is also seeking FEMA assistance for the reimbursable 
portion of the $10 million to assist in the cost of repairing damages 
to the EMAS at Groton-New London Airport, as well as substantial 
repairs to a gate damaged as a result of the storm.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                              John Porcari

    Question 1. Included in MAP 21, the surface transportation 
reauthorization bill that was enacted earlier this year, various 
provisions were added to streamline the rebuilding effort following a 
natural disaster. These included Sec. 1315, the categorical exclusion 
of ``the repair or reconstruction of any road, highway, or bridge that 
is in operation or under construction when damaged under certain 
declared emergencies or disasters'' from NEPA review. Can you please 
update the Committee on the progress of implementing these new 
provisions and inform us if there are any ongoing efforts to expedite 
this process in light of Sandy?
    Answer. As part of the implementation of MAP-21, FHWA and FTA 
published a Notice of Proposed Rulemaking (NPRM) on October 1, 2012, 
pursuant to section 1315, for the categorical exclusion for 
emergencies. The comment period closed on November 30, and the 
Department is currently developing the final rule to be published in 
early 2013. Additionally, FTA and FHWA are preparing an NPRM pursuant 
to MAP-21 section 1316 to designate any project within an operational 
right-of-way as another NEPA categorical exclusion. This rulemaking is 
also on an expedited schedule for promulgation. I would note also that 
actions to address emergency repairs by the FHWA Emergency Relief 
program under 23 U.S.C. 125 are currently covered by a categorical 
exclusion, and other FHWA and FTA emergency actions are often covered 
by existing categorical exclusions, under 23 CFR 771.117(c) and (d).

    Question 2. In your opinion, what other steps can this Committee 
take to guarantee that the Department of Transportation has the tools 
necessary to ensure a timely and cost efficient response to future 
disasters?
    Answer. Responding effectively to disasters requires a package of 
statutory authorities, adequate funding, and well-prepared Federal 
staff. The Federal Highway Administration for many years has had 
authority under 23 U.S.C. 125 to provide Emergency Relief funding to 
states, and the Federal Transit Administration received similar 
authority in MAP-21 (section 20017) earlier this year. Funding for this 
program is awaiting appropriation by Congress. FHWA's Emergency Relief 
program has a permanent authorization of $100 million per year, 
supplemented as needed with additional appropriations. MAP-21 requires 
that DOT and FEMA work in concert to make sure that the use of 
emergency funds are coordinated. Other modes of transportation have 
less clear-cut funding authority. Providing other modes with comparable 
funding authority would help to ensure that emergency recovery needs 
are addressed in a mode-neutral way. For DOT modal administrations with 
regulatory responsibilities, expediting emergency response sometimes 
requires authority to waive regulatory requirements when needed. For 
example, after Hurricane Sandy DOT issued a Federal Regional Emergency 
Declaration to waive hours of service requirements for CMV operations 
to facilitate the states' emergency waiver actions, and for the first 
time worked with state and local officials to coordinate waivers and 
expedited permits. Finally, responding effectively requires that 
emergency response staff have the necessary funding to be well-trained. 
Providing emergency response funding when the sun is shining is 
important to ensure that staff are properly trained to respond when 
disaster strikes. Recognizing that risks change, particularly as we 
consider sea level rise and other impacts of climate change, providing 
the Department with authority to rebuild in such a way that reduces 
future risks, even if that means rebuilding to different or higher 
standards and specifications, would help ensure that communities are 
more resilient in the future and save taxpayer resources in the long 
run.
    We have found, after both Hurricane Katrina and Hurricane Sandy, 
that activation of MARAD training ships and Ready Reserve Force (RRF) 
ships can provide essential support by housing and feeding the hundreds 
of emergency workers that are needed to respond to a major disaster. 
Having a dedicated Federal maritime response capability could enhance 
the ability to respond to coastal disasters in a timely manner. This 
capability could be modeled on the RRF program, which provides the 
Department of Defense (DOD) with a cost-effective way to maintain 
maritime lift capacity to deploy U.S. Forces. A similar capability 
could be established to support DHS/FEMA in responding to coastal 
disasters. These dedicated vessels could be outfitted beforehand with 
equipment to provide power generation, messing and berthing, water-
making capability, and command and control capability. This capability 
is somewhat similar to DOD's forward basing of equipment and supplies 
onboard ships located around the globe.

    Question 3. While natural disasters are varied, we know they are 
inevitable and certain regions are predisposed to certain types of 
disasters. For instances, in my home state of South Dakota we usually 
contend with droughts, flooding, blizzards, and high winds. What steps 
are taken within the Department to ensure state and local 
transportation agencies are prepared? What more can be done?
    Answer. The Department of Transportation has a comprehensive 
Emergency Response Program that includes an Emergency Response Team 
with representatives from all modes, with an Incident Command System 
structure. Besides formal training sessions, this team has been 
activated numerous times during my tenure at DOT and can solve complex 
transportation challenges that present themselves in many types of 
disasters. We are constantly looking for ways to improve, including 
participating in additional training and exercises with Federal, State, 
Tribal, Territorial, Local, and Private Sector partners. Additionally, 
our Emergency Response staff attends ``One DOT'' meetings all over the 
United States. These training and information exchange meetings bring 
regional DOT response staffs together on a routine basis with other 
regional Federal staffs as well as with our State/local partners. DOT's 
modal administrations work through various industry associations, 
airports, states, and local communities to disseminate information on 
best practices for disaster impact mitigation and to discuss emergency 
preparedness plans. FHWA works closely with AASHTO's Special Committee 
on Security and Emergency Management to ensure that State DOT security 
and emergency managers are well aware of lessons learned and best 
practices in emergency management. FHWA and FTA have also published a 
series of training documents on emergency management for state and 
local emergency managers, and have also provided training and 
workshops. FTA is also preparing guidance for its new Emergency Public 
Transportation Relief Program to assist transit authorities in 
protecting equipment and facilities from damage in the event of a 
disaster. FAA operates and maintains the National Airspace system, 
working with airports, air carriers and other entities to manage the 
system under constantly changing weather conditions. Continued 
development and implementation of the Next Generation Air 
Transportation System will support greater resilience and efficiency 
for the National Airspace System under all conditions. DOT has also 
actively been working with local authorities to help them identify and 
address their vulnerabilities to impacts of climate change such as 
severe weather events, sea level rise and extreme temperatures, to 
ensure that taxpayer resources are invested wisely and that 
transportation infrastructure, services and operations remain effective 
in current and future climate conditions. DOT has a number of active 
efforts under way to give transportation agencies tools for assessing 
vulnerability and plan for resiliency.

    Question 4. What are best management practices for disaster 
readiness, preparation and recovery currently used by the DOT? Are 
current practices in agreement with other industry groups, the state of 
engineering science and your professional opinion?
    Answer. Extensive planning, training, and coordination with 
stakeholders are the key best practices that all Federal agencies 
involved in disaster response must practice. In addition to these, DOT 
has found that establishment of an intermodal task force was effective 
in facilitating the movement of various emergency response teams, 
equipment, and supplies into the affected area. These teams were 
particularly important in moving oversize and overweight equipment such 
as emergency generators. Agencies with regulatory responsibilities need 
an effective way to coordinate and expedite regulatory flexibility 
during emergencies. FRA's Emergency Relief Docket is a good example of 
such a mechanism. DOT is also working to incorporate information on 
future risks and conditions in our disaster readiness and response 
work, as in the FTA's 2011 report, ``Flooded Bus Barns and Buckled 
Rails,'' which highlights how transit agencies can factor climate 
change adaptation into emergency responses. In addition to our internal 
efforts to address all types of disaster scenarios, DOT is an active 
participant in the National Disaster Recovery Framework (NDRF), an 
interagency guide to promote effective recovery, particularly for those 
incidents that are large-scale or catastrophic. We contribute to and 
track after-action ``best practices'' reports for emergency response 
incidents and training through the FEMA Lessons Learned Information 
Sharing (LLIS.gov) website which was specifically established for this 
purpose. FTA strongly recommends that transit agencies adopt Continuity 
of Operations Plans to identify essential functions and establish 
alternative personnel structures, operating facilities, and 
communications networks when normal structures are disrupted. Finally, 
working with emergency response committees of transportation and 
research organizations such as AASHTO and the Transportation Research 
Board helps to ensure that our emergency response practices reflect the 
latest research and experience of practitioners.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
